APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the Court of Appeal of the
State of California, Second Appellate
District, Division Five, B296917
(May 13, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Order on Defendants’
Motion to Quash Service of Summons
with Regard to the Claims of NonCalifornia Plaintiffs for Lack of
Personal Jurisdiction or to Dismiss
the Claims of Non-California Plaintiffs
on Grounds of Forum non Conveniens
in the Superior Court of the State of
California for the County of Los
Angeles, Case No. JCCP 4761, BC
536940
(March 15, 2019) . . . . . . . . . . . . . . App. 3
Appendix C Order Denying Petition for Review in
the Supreme Court of California,
S255942
(July 31, 2019). . . . . . . . . . . . . . . App. 20
Appendix D Defendants’ Reply in Further Support
of Their Omnibus Motion for
Summary Judgment in the United
States District Court for the District of
South Carolina, Charleston Division,
MDL No. 2:14-mn-02502-RMG
(August 12, 2016) . . . . . . . . . . . . App. 21

ii
Appendix E Reporter’s Transcript of Status
Conference in the United States
District Court Central District of
California, Western Division, Case No.
8:17-mc-00005-CJC-JPR
(February 1, 2017) . . . . . . . . . . . App. 55
Appendix F Petition for Writ of Mandate;
Memorandum of Points and
Authorities in the Court of Appeal of
the State of California, Second
Appellate District, Division Five,
B296917
(April 12, 2019) . . . . . . . . . . . . . . App. 68

App. 1

APPENDIX A
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FIVE
B296917
(Super. Ct. No. JCCP4761)
(Carolyn Kuhl, Judge)
[Filed May 13, 2019]
________________________________
PFIZER INC., et al.,
)
)
Petitioners,
)
)
v.
)
)
THE SUPERIOR COURT OF
)
LOS ANGELES COUNTY,
)
)
Respondent;
)
)
NON-CALIFORNIA
)
RESIDENTS et al.,
)
)
Real Parties in Interest. )
________________________________ )
ORDER

App. 2
The court has read and considered the petition for
writ of mandate filed April 12, 2019, the preliminary
opposition filed April 22, 2019, and reply filed May 2,
2019. The petition is denied. The respondent court did
not err in denying the motion to quash service of
summons for lack of personal jurisdiction, and the
respondent court was within its discretion in denying
the motion to dismiss the action on the ground of forum
non conveniens.
/s/Moor
MOOR, J.

Kim
KIM, J.

I would issue an order to show cause.
/s/Baker
BAKER, Acting P.J.

App. 3

APPENDIX B
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
CASE NO. JCCP 4761
BC 536940
Judge: Hon. Carolyn Kuhl
Dept.: 12 - SSC
[Filed March 15, 2019]
___________________________________
COORDINATINO PROCEEDING
)
SPECIAL TITLE (RULE 3.550)
)
)
LIPITOR CASES
)
)
__________________________________ )
This document relates to:
)
)
ALL CASES IN WHICH NON)
CALIFORNIA RESIDENTS HAVE )
ASSERTED CLAIMS
)
___________________________________ )
OPINION AND ORDER ON DEFENDANTS’
MOTION TO QUASH SERVICE OF SUMMONS
WITH REGARD TO THE CLAIMS OF NONCALIFORNIA PLAINTIFFS FOR LACK OF
PERSONAL JURISDICTION OR TO DISMISS THE
CLAIMS OF NON-CALIFORNIA PLAINTIFFS ON
GROUNDS OF FORUM NON CONVENIENS

App. 4
Defendants Pfizer Inc. and Greenstone LLC
(hereinafter collectively referred to as the Pfizer
Defendants) move to quash service of summons with
regard to the claims of Non-California Plaintiffs for
lack of personal jurisdiction or, alternatively, to dismiss
the claims of the Non-California Plaintiffs based on the
doctrine of forum non conveniens. For the reasons set
forth below, Defendants’ motion to quash for lack of
personal jurisdiction is denied and the court declines to
dismiss under the equitable doctrine of forum non
conveniens.
Brief Summary of Procedural Background
The group of cases comprising this coordinated
proceeding were filed in various courts in California
and were removed to federal district court. Thereafter,
the cases were transferred to a federal multidistrict
litigation proceeding, In re: Lipitor (Atorvastatin
Calcium Marketing, Sales Practices and Products
Liability Litigation, MDL No. 2:14-mn-02502-RMG
(hereinafter referred to as the MDL proceeding.)
Plaintiffs sought a remand on the ground that there
was not complete diversity because McKesson
Corporation, a California company, is named as a
Defendant in the cases. The MDL transferee judge
referred the subject matter jurisdiction issue to a
federal magistrate judge who recommended that the
California cases be remanded. The Pfizer Defendants
took exception to that recommendation, appealing the
issue to the MDL transferee judge. The transferee
judge did not address the remand issue immediately,
but rather continued to address matters of consequence
to the entire range of cases before him.

App. 5
With respect to personal jurisdiction, the Pfizer
Defendants pleaded a defense of lack of personal
jurisdiction in their answers in federal court, but they
did not file a motion to dismiss for lack of personal
jurisdiction. In state court, a failure to assert lack of
personal jurisdiction by way of a threshold motion
would preclude later assertion of that defense.
However, as discussed below, this court must apply
federal procedural law with respect to actions of the
parties while in federal court, and federal law is more
forgiving with respect to waiver or forfeiture of a
defense of lack of personal jurisdiction.
In the MDL proceeding, the parties took discovery,
but Pfizer did not take discovery specific to the
Plaintiffs in the California cases that are the subject of
this coordinated proceeding. Eventually, the MDL
transferee judge ruled that Plaintiffs’ specific causation
experts were precluded from testifying under Daubert
v. Merrell Dow Pharms., Inc. (1993) 509 U.S. 579.
Thereafter, the judge issued a case management order
requiring any individual Plaintiff in the MDL
proceeding who wished to proceed to trial (despite the
prior ruling precluding Plaintiffs’ specific causation
experts) to provide notice within 15 days and set forth
how that Plaintiff’s case was distinguishable. No
Plaintiff gave such notice.
The Pfizer Defendants then filed an “Omnibus
Motion for Summary Judgment,” asserting that they
were “entitled to summary judgment in all cases.”
(Decl. of Charles G. Orr, Ex. AA at p. 10.) The Pfizer
Defendants acknowledged that Plaintiffs’ counsel had
taken the position in the California cases that “‘they do

App. 6
not intend to undertake any action in response to [the
case management order allowing an omnibus summary
judgment motion to be brought]’ because [Plaintiffs’
California cases] are subject to pending remand
motions.” (Id. at p. 2, fn. 1.) Nevertheless, the Pfizer
Defendants made no exception from their Omnibus
Motion for Summary Judgment as to the nonCalifornia Plaintiffs in the California cases who,
according to the Pfizer Defendants’ answer in the MDL
proceeding, were required to be dismissed for lack of
personal jurisdiction.
In response to the Omnibus Motion for Summary
Judgment, counsel for the California cases requested
that the transferee judge “reject any invitation from
Pfizer to treat their cases as subject to the omnibus
MSJ,” maintaining the Plaintiffs’ position that the
court lacked subject matter jurisdiction over the
California cases and that they should be remanded.
(Id., Ex. CC at p. 2.)
In “Defendants Reply in Further Support of Their
Omnibus Motion for Summary Judgment,” the Pfizer
Defendants maintained their position that “[t]he record
and the law . . . require entry of summary judgment in
all cases.” (Id., Ex. DD at p. 2 (emphasis added).) The
Pfizer Defendants again made no reference to their
contention that the transferee court lacked personal
jurisdiction over them as to non-California Plaintiffs in
the California cases.
With respect to subject matter jurisdiction, in their
Omnibus Reply Brief the Pfizer Defendants argued
that the court had “subject matter jurisdiction over all
cases in the MDL and the Court’s expert rulings

App. 7
warrant summary judgment in every case.” (Id. at p.
19.) The Reply Brief asserted that, insofar as the MDL
transferee judge decided to “defer[] ruling on summary
judgment in cases where Plaintiffs have moved to
remand,” the Pfizer Defendants reserved their right to
renew the summary judgment motion. (Id.) In a
footnote, the Pfizer Defendants acknowledged that
Plaintiffs with remand motions did not intend to be
subject to the outcome of the Omnibus Motion for
Summary Judgment. The Pfizer Defendants suggested
that the court “issue a similar order [on summary
judgment] after addressing the remand motions.” (Id.
at p. 19, fn. 9.) The Pfizer Defendants also argued that,
in the California cases, Plaintiffs who did not move for
remand until after the transferee court had issued its
Daubert ru1ings should be subject to the Omnibus
Motion for Summary Judgment ruling because
“[c]ourts have rejected such forum shopping.” (Id.)
Thus, in the briefing on the Omnibus Summary
Judgment Motion in the MDL proceeding, Plaintiffs in
the California cases acted to preserve their subject
matter jurisdiction defense. By contrast, the Pfizer
Defendants made no mention whatsoever of any intent
to preserve a defense based on lack of personal
jurisdiction as to the non-California Plaintiffs in the
California cases.
The federal court granted the Pfizer Defendants’
Omnibus Summary Judgment Motion, but, as to the
California cases, the court adopted the magistrate
judge’s recommendation and remanded those cases
based on lack of subject matter jurisdiction.

App. 8
Personal Jurisdiction Forfeiture
The Pfizer Defendants now move to dismiss on the
ground that this court lacks personal jurisdiction over
them. Plaintiffs agree that under the principles of
Bristol-Myers Squibb Co. v. Superior Court (2017) 137
S.Ct. 1773, a timely motion to dismiss for lack of
personal jurisdiction would be meritorious. However,
Plaintiffs argue that the Pfizer Defendants, by their
actions in federal court, forfeited their right to assert
lack of personal jurisdiction.
Once a case is removed to federal court, federal
procedural law governs. (Granny Goose Foods v. Bhd.
of Teamsters & Auto Truck Drivers (1974) 415 U.S. 423,
437; see also Fed. Rules Civ. Proc., rule 81 (“[t]hese
rules apply to a civil action after it is removed from a
state court”).) It follows that this court must look to
federal law to determine whether the Pfizer
Defendants properly preserved their right to move to
dismiss for lack of personal jurisdiction while these
cases were pending in federal court. (Hamilton v. Atlas
Turner, Inc. (2d Cir. 1999) 197 F .3d 58, 61 (Hamilton)
(“whether forfeiture [of the defense of lack of personal
jurisdiction] has occurred is a matter of federal
procedural law”).)
Defendants preserved the defense of lack of
personal jurisdiction in their answers in federal court.
(See Fed. Rules Civ. Proc., rule 12(h).) However, in
federal court a defendant forfeits the defense of lack of
personal jurisdiction, even though it has included the
defense in its answer, if it has delayed in challenging
personal jurisdiction by motion. (See, e.g., Datskow v.
Teledyne, Inc. (2d Cir. 1990) 899 F.2d 1298, 1303.) “A

App. 9
defendant does not waive a personal jurisdiction
defense by participating in the initial proceedings for
multi-district litigation as long as that defendant raises
the defense in a timely motion to dismiss.” (In re
Atrium Med. Corp. C-Qur Mesh Prods. Liab. Litig. Mdl
No. 2753 (D.N.H. 2017) 299 F. Supp. 3d 324, 329.) As
one treatise explains, “a party can be held to have
waived a defense listed in Rule 12(h)(1) through
conduct, such as extensive participation in the
discovery process or other aspects of the litigation of
the case even if the literal requirements of Rule
12(h)(1) have been met, although the cases are far from
uniform on the subject; the result seems to turn on the
particular circumstances of an individual case.”
(Wright et al., 5C Fed. Prac. & Proc. Civ. § 1391 (3d
ed.).) “Although the passage of time alone is generally
not sufficient to indicate forfeiture of a procedural right
. . . the time period provides the context in which to
assess the significance of the defendant’s conduct, both
the litigation activity that occurred and the
opportunities to litigate the jurisdictional issue that
were forgone.” (Hamilton, supra, 197 F .3d at p. 61
(internal citations omitted).)
In Hamilton, the appellate court reversed the
district court’s dismissal of a complaint for lack of
personal jurisdiction on the ground that the district
court abused its discretion in hearing the defendant’s
motion to dismiss for lack of personal jurisdiction. The
case was originally filed in the Southern District of
New York, and the defendant preserved the defense of
lack of personal jurisdiction by raising the defense in
its answer. (Id. at p. 60.) Some four months later, the
MDL panel transferred the case, along with others, to

App. 10
the Eastern District of Pennsylvania for pretrial
proceedings and defendant did not object to the MDL
transfer. (Id.) Three years later, the transferee judge
returned to case to the Southern District of New York.
(Id.) Eight months later, the defendant moved to
dismiss, arguing that the district court lacked personal
jurisdiction. (Id.) The Second Circuit’s opinion finds a
forfeiture of the defense based on the defendant’s
failure to raise the personal jurisdiction defense by
motion before transfer to the MDL proceeding, the
defendant’s acquiescence in transfer to the MDL, the
defendant’s failure to seek to file a motion during the
MDL proceedings and defendant’s delay in filing a
motion after the MDL transferee judge returned the
case to the Southern District of New York.1 (Id. at pp.
61-62.) The court concluded: “In sum, Atlas
participated in pretrial proceedings but never moved to
dismiss for lack of personal jurisdiction despite several
clear opportunities to do so during the four-year

1

In their Reply Brief, the Pfizer Defendants attempt to distinguish
Hamilton purportedly on the ground that “defendant failed to
renew [its] motion to dismiss [on grounds of personal jurisdiction]
until after [the] $4,000,000 plaintiffs’ verdict . . . . ” (Reply Brief at
p. 10, fn. 4.) This statement seriously mischaracterizes the
rationale of Hamilton. The Second Circuit based its forfeiture
analysis on events that occurred before the defendant filed a
motion to dismiss in August 1998 prior to trial. (Hamilton, supra,
197 F.3d at p. 62 (Defendant’s motion to dismiss “was not filed
until August 1998 . . . ”).) The trial on the merits in Hamilton took
place in October 1998. (Id. at p. 60.) Thus the forfeiture occurred
before the trial and verdict, and the defendant’s renewal of its
motion to dismiss after trial played no part in the Court’s analysis
of forfeiture because forfeiture had already occurred before
defendant filed its pre-trial motion to dismiss.

App. 11
interval after filing its answer. These circumstances
establish a forfeiture.” (Id. at p. 62.)
The facts of Hamilton are similar to those presented
here. The Pfizer Defendants began removing these
actions to federal courts in March 2014. Instead of
filing a motion to dismiss all claims brought by out-ofstate Plaintiffs, Defendants sought transfer of the cases
to the MDL proceeding. In the MDL proceeding,
although Plaintiffs in the California cases sought a stay
of fact discovery, the Pfizer Defendants asked that
counsel in the California cases be ordered to participate
in depositions of witnesses common to all cases in the
MDL proceeding and to provide narrowly tailored
jurisdictional discovery that could be used to support
Defendants’ arguments in favor of maintaining subject
matter jurisdiction in the MDL proceeding. Defendants
argued that the transferee court had subject matter
jurisdiction in the MDL proceeding over all cases, but
never filed a motion to dismiss the out-of-state
Plaintiffs’ claims from the California cases. Although
the Pfizer Defendants did not seek discovery specific to
the individual Plaintiffs in the California cases, they
continued to litigate in the MDL proceeding,
persuading the transferee court that the bellwether
plaintiffs had failed to proffer admissible expert
testimony as to causation. On June 24, 2016,
Defendants filed their “Omnibus Motion for Summary
Judgment.” The transferee court ultimately remanded
the cases back to the federal court in California. Upon
such transfer, having failed to convince the transferee
court in the MDL proceeding that it had subject matter
jurisdiction over the California cases, Defendants filed
status reports for the California cases in December

App. 12
2016 requesting dismissal of claims by non-residents
for lack of personal jurisdiction.
During the close to three years between Pfizer’s
removal of the California cases and the remand from
the MDL proceeding, the Pfizer Defendants had more
than enough time to litigate their defense of lack of
personal jurisdiction as to the non-California Plaintiffs
in the California cases but did not do so. This conduct
alone results in a forfeiture of the defense. (See, e.g.,
Continental Bank, N.A. v. Meyer (7th Cir. 1993) 10 F.3d
1293, 1296-1297 (holding that a defendant waived the
defense of lack of personal jurisdiction where it
participated fully in the merits of the litigation for over
two years, and did not actively contest personal
jurisdiction until responding to plaintiff’s summary
judgment motion; the trial court could properly
conclude that defendants had manifested an intent to
submit to the court’s jurisdiction); Cohain v. Klimley
(S.D.N.Y. Sep. 20, 2010) 2010 U.S.Dist.LEXIS 98870,
at *52-53 (“[t]he eighteen months that passed between
the filing of [the defendant’s] answer and the instant
motion is a ‘considerable length of time”’ for the
purposes of finding forfeiture).)
Beyond delay, however, here the Pfizer Defendants
acceded to the jurisdiction of the court by seeking a
ruling on the merits of the California cases before the
transferee court. The “actions of the defendant may
amount to a legal submission to the jurisdiction of the
court, whether voluntary or not.” (Insurance Corp. of Ir.,
Ltd., et al. v. Compagnie des Bauxites de Guinee, (1982)
456 U.S. 694, 704-705 (emphasis added).) A party
forfeits the defense of personal jurisdiction by

App. 13
“manifest[ing] an intent to submit to the court’s
jurisdiction.” (Brokerwood Prods. Int’l, Inc. v. Cuisine
Crotone, Inc. (5th Cir. 2004) 104 F.App’x 376, 380
(internal quotations and citation omitted).)
In Fid. & Cas. Co. v. Tex. E. Transmission Corp. (3d
Cir. 1994) 15 F.3d 1230, for example, the federal Court
of Appeals held that a defendant “effectively waived the
defense of lack of personal jurisdiction” where it failed
to move to dismiss before litigating the opposing party’s
motions for summary judgment “and, in fact, moved for
summary judgment on other grounds.” (Id. at p. 1236
(lack of personal jurisdiction based on improper
service).) Similarly, in Wyrough & Loser, Inc. v.
Pelmore Laboratories, Inc. (3d Cir. 1967) 376 F.2d 543
(Wyrough & Loser), the Court of Appeals found that an
application for a preliminary injunction by a plaintiff
was a “vital proceeding,” and that, “[e]ven though its
conclusion is not determinative of the ultimate results
of the litigation,” the defendant was deemed to have
waived the defense of lack of personal jurisdiction by
participating in four days of hearings on plaintiff’s
motion, and hearing the trial court’s determination to
rule in plaintiffs favor, before moving to dismiss for
lack of personal jurisdiction. (Id. at pp. 545, 547.)
Here, after prevailing on important motions
excluding Plaintiffs’ causation experts in the MDL
proceeding, the Pfizer Defendants decided to capitalize
on those rulings. The Pfizer Defendants unequivocally
sought summary judgment in the California cases.
Recognizing that Plaintiffs took the view that the
federal court lacked subject matter jurisdiction over the
California cases, the Pfizer Defendants nevertheless

App. 14
urged the transferee judge to enter summary judgment
in the Pfizer Defendants’ favor after rejecting Plaintiffs’
subject matter jurisdiction arguments. The Pfizer
Defendants did not, even in a footnote, indicate that
they continued to challenge the federal court’s subject
matter jurisdiction over non-California Plaintiffs in the
California cases. Rather, the Pfizer Defendants asked
the transferee court to enter judgment on their behalf
against those Plaintiffs, thus acquiescing in the
jurisdiction of the court.
As explained in the case law described above,
federal courts do not allow a defendant to preserve its
defense of lack of personal jurisdiction while litigating
the ultimate merits of a case. There can be no doubt
that, if the Pfizer Defendants had lost their “Omnibus
Motion for Summary Judgment” before the transferee
court, they would have been foreclosed from raising the
issue of personal jurisdiction to attempt, after the fact,
to avoid application of such adverse ruling as to the
non-California Plaintiffs. “Because there ‘exists a
strong policy to conserve judicial time and resources,’
we have held that ‘preliminary matters such as . . .
personal jurisdiction . . . should be raised and disposed
of before the court considers the merits or quasi-merits
of a controversy.’” (Bel-Ray Co. v. Chemrite Ltd. (1999)
181 F.3d 435, 443 (quoting Wyrough & Loser, supra,
376 F.2d at p. 547.) The Pfizer Defendants cite no
authority that would support a different outcome with
respect to forfeiture of a personal jurisdiction defense
after remand to state court. The Pfizer Defendants
forfeited their defense of lack of personal jurisdiction as
to the non-California Plaintiffs when they submitted

App. 15
the merits of the cases to the transferee court in the
MDL proceeding.
Defendants’ reliance on Ruhrgas Ag v. Marathon
Oil Co. (Ruhrgas) (1999) 526 U.S. 574, is misplaced.
The holding in Ruhrgas was that district courts, which
normally first decide the issue of subject matter
jurisdiction, may instead properly decide the issue of
personal jurisdiction at the outset. (Id. at p. 578.) The
case does not address the issue of when a defendant
forfeits its defense of lack of personal jurisdiction.
Quite the opposite, the case highlights the fact that
Defendants here could have asked the federal courts to
first decide the issue of personal jurisdiction before
addressing the issue of subject matter jurisdiction
raised by the Plaintiffs in the California cases.
Forum Non Conveniens
“The doctrine of forum non conveniens is rooted in
equity. It allows a court to decline to exercise its
jurisdiction over a case when it determines that the
case may be more appropriately and justly tried
elsewhere.” (Fox Factory, Inc. v. Superior Court (2017)
11 Cal.App.5th 197, 203 (internal citations and
quotations omitted).) “In determining whether to grant
a motion based on forum non conveniens, a court must
first determine whether the alternate forum is a
‘suitable’ place for trial. If it is, the next step is to
consider the private interests of the litigants and the
interests of the public in retaining the action for trial
in California. The private interest factors are those
that make trial and the enforceability of the ensuing
judgment expeditious and relatively inexpensive, such
as the ease of access to sources of proof, the cost of

App. 16
obtaining attendance of witnesses, and the availability
of compulsory process for attendance of unwilling
witnesses. The public interest factors include avoidance
of overburdening local courts with congested calendars,
protecting the interests of potential jurors so that they
are not called upon to decide cases in which the local
community has little concern, and weighing the
competing interests of California and the alternate
jurisdiction in the litigation.” (Stangvik v. Shiley Inc.
(1991) 54 Cal.3d 744, 751 (internal citations omitted).)
The Pfizer Defendants bear the burden of proof on their
motion for forum non conveniens. (Id. at p. 751.)
Defendants have failed to show that there is a
suitable forum for these cases. “An alternative forum is
suitable if it has jurisdiction and the action in that
forum will not be barred by the statute of limitations.”
(Investors Equity Life Holding Co. v. Schmidt (2011)
195 Cal.App.4th 1519, 1529.) The Pfizer Defendants
have not stipulated that they would not raise a statute
of limitations defense in the alternative forum; rather,
they have proposed a conditional future agreement to
toll the statute of limitations. The Pfizer Defendants
state that they will agree to toll the statute of
limitations only to the extent it had not already expired
at the time the actions were filed, and only if out-ofstate Plaintiffs refile in their respective home states as
single-plaintiff actions within a “reasonable” time.
(Defs.’ Mot. Quash at p. 13.) The future stipulation
does not account for the fact that California might have
a different limitations period from certain other states;
therefore, it is possible that Plaintiffs complying with
California’s limitations period would be shut out of
other states’ courts under the proposed stipulation. The

App. 17
Pfizer Defendants have failed to show this would not be
a potential result. Moreover, the ambiguity of the
phrase “reasonable time” may lead to a similar result.
This case involves thousands of Plaintiffs who have
seen their cases stalled in the preliminary stages for
years. It would no doubt take time to reorganize and
decide how to go forward if this court dismissed out-ofstate Plaintiffs for forum non conveniens. Many
Plaintiffs might find that the “reasonable time”
contemplated by the Pfizer Defendants had passed, and
thus lose a suitable forum to have their case heard. The
Pfizer Defendants have thus failed to make a sufficient
showing on the first step of the forum non conveniens
analysis.
Moreover, there are strong reasons in favor of
litigating all of these similar cases in one place:
namely, in the coordinated proceedings of a complex
court. The Pfizer Defendants themselves repeatedly
endorsed the benefits of litigating all of these claims
together. The Pfizer Defendants twice removed this
group of California cases under the Class Action
Fairness Act of 2005 (CAFA) (28 U.S.C. §§ 1332, 1453,
1711-1715) without expressing concern that individual
evidence (testimony from individual physicians) would
not be able to be effectively presented. Indeed, in the
recent history of this case, having removed the
California cases under CAFA for the second time, the
Pfizer Defendants expressed to the Hon. Cormac J.
Camey that, if he kept the cases in federal court, the
Pfizer Defendants would not assert a lack of personal
jurisdiction as to the non-California Plaintiffs. Thus,
the Pfizer Defendants have endorsed a procedural
posture giving rise to the circumstances the Pfizer

App. 18
Defendants now argue would create an inconvenient
forum. Defendants have always, up until now,
advocated for keeping these cases in one forum.
Requiring the Pfizer Defendants to try all, instead of
some, of the cases in California will not pose a great
burden, as they now attempt to assert. Plaintiffs would
greatly benefit from managing the cases in a
coordinated fashion. Plaintiffs have waited years while
their cases have been removed, transferred, and
remanded. It would be inequitable at this time to
require them to start the process over again in other
states.
As for public factors, even if the court were to grant
Defendants’ motion, hundreds of California Plaintiffs
would proceed with this case. The cases of the nonCalifornia Plaintiffs have significant overlap, especially
in pretrial proceedings, with the cases of the California
Plaintiffs that must remain in the coordinated
proceeding here. Further, as the California Supreme
Court has made clear, California has an interest in
providing a forum for matters such as these: “To the
extent that evidence of the injuries allegedly suffered
by the nonresident plaintiffs may be relevant and
admissible to prove that [the defendant’s
pharmaceutical drug] similarly injured the California
plaintiffs, trying their cases together with those of
nonresident plaintiffs could promote efficient
adjudication of California residents’ claims.” (BristolMyers Squibb Co. v. Superior Court (2016) 1 Cal.5th
783, 810, rev’d 137 S.Ct. 1773.) “To be sure, a single
court hearing the claims of hundreds of plaintiffs is a
significant burden on that court. But the overall
savings of time and effort to the judicial system, both

App. 19
in California and interstate, far outweigh the burdens
placed on the individual forum court.” (Id. at p. 811.)
California also has an interest in regulating the
conduct of the co-defendant in this case, McKesson
Corporation, which is headquartered in California. (Id.
at p. 811.)
The California Supreme Court’s decision in BristolMyers Squibb Co. was reversed by the United States
Supreme Court, and its policy statements concerning
the public interests of the California court system are
irrelevant to a correct analysis of the constitutional
issue of the proper scope of in personam jurisdiction,
the issue litigated in that case. However, this court
should not ignore those policy statements in analyzing
the public interests of the California courts in the
context of forum non conveniens. The California
Supreme Court’s articulation of the public interests of
the California courts is plainly applicable to that
analysis.
ORDER
The Pfizer Defendants’ Motion to Quash for Lack of
Personal Jurisdiction and Motion to Dismiss on
Grounds of Forum Non Conveniens are denied.
Dated: March 15, 2019
/s/Carolyn B. Kuhl
CAROLYN B. KUHL
JUDGE OF THE SUPERIOR COURT

App. 20

APPENDIX C
IN THE SUPREME COURT OF CALIFORNIA
S255942
Court of Appeal, Second Appellate District,
Division Five - No. B296917
En Banc
[Filed July 31, 2019]
___________________________________
PFIZER INC., et al., Petitioners,
)
)
v.
)
)
SUPERIOR COURT OF LOS
)
ANGELES COUNTY, Respondent;
)
)
NON-CALIFORNIA RESIDENTS
)
et al., Real Parties in Interest.
)
___________________________________ )
The petition for review is denied.
Chin, J., was recused and did not participate.

CANTIL-SAKAUYE
Chief Justice

App. 21

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
CHARLESTON DIVISION
MDL No. 2:14-mn-02502-RMG
This Document Relates to
All Actions
[Filed August 12, 2016]
___________________________________
IN RE: LIPITOR (ATORVASTATIN )
CALCIUM) MARKETING, SALES
)
PRACTICES AND PRODUCTS
)
LIABILITY LITIGATION
)
___________________________________ )
DEFENDANTS’ REPLY IN FURTHER
SUPPORT OF THEIR OMNIBUS
MOTION FOR SUMMARY JUDGMENT

App. 22
TABLE OF CONTENTS
Page
PRELIMINARY STATEMENT . . . . . . . . . . . . . . . . . 1
I. EXPERT TESTIMONY IS REQUIRED TO
ESTABLISH CAUSATION . . . . . . . . . . . . . . . . . 2
II. PLAINTIFFS CANNOT CREATE AN ISSUE OF
FACT ON CAUSATION AT DOSES BELOW 80
MG BASED ON “NON-EXPERT EVIDENCE” . . 4
A. So-Called Company “Admissions” Cannot
Substitute for Expert Testimony . . . . . . . . . . 5
B. Plaintiffs Have Not Identified Any Sufficient
Evidence of General Causation that Could
Replace Expert Testimony . . . . . . . . . . . . . . . 8
1. Emails and Deposition Testimony . . . . . . . . . 8
2. Japanese and U.S. Labels . . . . . . . . . . . . . . . 10
3. NDA Glucose Data . . . . . . . . . . . . . . . . . . . . 11
4. Website Statement About Adverse Event
Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
III. PLAINTIFFS CANNOT PROCEED BECAUSE
THEY LACK ADMISSIBLE AND SUFFICIENT
EVIDENCE OF SPECIFIC CAUSATION . . . . . 13
A. Plaintiffs Waived Any Contention that these
Cases Are Not Ripe for Summary Judgment
on the Ground of Specific Causation . . . . . . 13

App. 23
B. Plaintiffs’ Contention that They Can Prove
Specific Causation Without Admissible
Expert Testimony Fails on the Merits . . . . . 15
C. Summary Judgment Can and Should Be
Granted by This Court . . . . . . . . . . . . . . . . . 18
IV. THIS COURT HAS SUBJECT MATTER
JURISDICTION IN ALL CASES. . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
***
[Table of Authorities Omitted in the
Printing of this Appendix]

App. 24
PRELIMINARY STATEMENT
Plaintiffs disregard well-settled law and the entire
litigation process to which this Court and the parties
have devoted two and a half years. As this Court
recently emphasized in CMO 81, “[t]he parties have, up
to this point, litigated this MDL as if they agreed that
whether Lipitor can and did cause diabetes, a
complicated, progressive and multi-factor disease, is a
complicated medical issue requiring expert testimony.”
[1599] at 3. Now, faced with summary judgment,
Plaintiffs reverse course and argue – for the first time
– that they should be able to prove general and specific
causation “in the absence of any expert evidence.” Opp.
at 1; id. at 17. Their position has no support in the law
or facts.
The law requires admissible expert testimony to
establish causation in cases like these involving
complex medical and scientific issues. The Daubert
process would be meaningless if plaintiffs whose
causation experts were excluded could nonetheless
advance to trial and try to prove causation through
attorney-selected documents characterized as company
“admissions.” As another MDL court recently held, “no
court has held that admissions can substitute for
required expert testimony …. Such a ruling would
disregard the purpose of the requirement for expert
testimony, leaving jurors to speculate, and would chill
free and frank discussion by manufacturers of drugs or
devices.” In re Mirena IUD Prods. Liab. Litig., 2016 WL
4059224, at *12 (S.D.N.Y. July 28, 2016). Moreover,
none of the “non-expert evidence” that Plaintiffs point
to as a stand-in for expert testimony is an admission of

App. 25
general causation, and none creates an issue of
material fact in the absence of admissible and
sufficient expert testimony. See id. at *17; In re Zoloft
Prods. Liab. Litig., 2016 WL 1320799, at *9 (E.D. Pa.
Apr. 5, 2016).
In the same way, as the Court observed in CMO 81,
Plaintiffs also “assert for the first time that it may be
possible that some unidentified Plaintiffs may be able
to survive summary judgment based on some
unidentified circumstantial, non-expert evidence of
specific causation.” CMO 81 at 1-2. Plaintiffs make no
effort to explain how they can advance these
arguments given their concession, by not responding to
CMO 65, that no case can survive summary judgment
on specific causation if the Court’s ruling in CMO 55 is
correct. Although the Court has agreed that “[t]hese
plaintiffs should have come forward in response to
CMO 65,” CMO 81 “provide[s] any such Plaintiffs with
an additional opportunity to present evidence in
response to Defendant’s motion for summary
judgment.” Id. at 3. Plaintiffs’ deadline under CMO 81
has not yet passed, but the controlling standards are
available and require expert testimony to establish
general and specific causation in every case.
The record and the law thus require entry of
summary judgment in all cases.
I.

EXPERT TESTIMONY IS REQUIRED TO
ESTABLISH CAUSATION

Courts repeatedly recognize that “personal injury
cases involving pharmaceuticals, toxins or medical
devices involve complex questions of medical causation

App. 26
beyond the understanding of a lay person” and thus
require expert causation testimony. In re Baycol Prods.
Litig., 321 F. Supp. 2d 1118, 1126 (D. Minn. 2004).1
“[W]ithout it the jury is left to speculate.” Mirena, 2016
WL 4059224, at *5. “[A]ll jurisdictions have a similar
rule requiring expert testimony where a matter is
outside the ken of an ordinary lay juror.” Id. at *7. See
Appendix, Ex. 4.
Plaintiffs cannot show that their cases present an
exception to this ubiquitous rule. Until now, they never
disputed the fact that their causation theories raise
complex issues that require reliable and admissible
expert opinions to avoid the risk of a jury being
confused or misled. The Court and parties recognized
from the start that the viability of Plaintiffs’ claims
hinged on whether they could proffer expert causation
opinions that satisfy Daubert. Plaintiffs helped craft
case management plans that called for the Court to

1

Accord Lewis v. Johnson & Johnson, 601 F. App’x 205, 210-11
(4th Cir. 2015); Zellers v. NexTech Ne., L.L.C., 533 F. App’x 192,
200 (4th Cir. 2013) (per curiam), cert. denied, 134 S. Ct. 911 (2014);
Chapman v. Procter & Gamble Distrib., L.L.C., 766 F.3d 1296,
1316 (11th Cir. 2014), cert. denied, 135 S. Ct. 2312 (2015); Wells v.
SmithKline Beecham Corp., 601 F.3d 375, 381 (5th Cir. 2010);
Amorgianos v. Nat’l R.R. Passenger Corp., 303 F.3d 256, 268 (2d
Cir. 2002); Mirena, 2016 WL 4059224, at *4-5; McClure v. Wyeth,
2012 WL 952856, at *1 (D.S.C. Mar. 20, 2012) (Herlong, J.); In re
Bausch & Lomb Inc. Contacts Lens Solution Prods. Liab. Litig.,
693 F. Supp. 2d 515, 518 (D.S.C. 2010) (Norton, J.), aff’d sub nom
Fernandez-Pineiro v. Baush & Lomb, Inc., 429 F. App’x 249 (4th
Cir. 2011) (per curiam); Meade v. Parsley, 2010 WL 4909435, at *2
(S.D. W. Va. 2010); Disher v. Synthes (U.S.A.), 371 F. Supp. 2d 764,
772 (D.S.C. 2005) (Norton, J.); In re Viagra Prods. Liab. Litig., 658
F. Supp. 2d 950, 968 (D. Minn. 2009).

App. 27
make threshold decisions on the admissibility of such
opinions. Plaintiffs named experts from more than five
disciplines who served lengthy reports opining on the
issue of general causation, including how diabetes
develops, progresses, and is diagnosed; the statistical
and clinical interpretation of large bodies of
epidemiological data; and proposed mechanisms of
action. Even after Plaintiffs’ report deadline passed
and several experts had been deposed, Plaintiffs
obtained leave to serve additional expert reports with
new opinions that they claimed were “of critical
importance to this MDL litigation.” [865]; CMO 34
[869]. Plaintiffs also described an elaborate “jigsaw
puzzle nature of the experts,” with Prof. Jewell
“offering the statistical basis on which the other
experts can then build their causation opinion.” 9/24/15
Hr’g Tr. [1170] at 35:5-36:12. Plaintiffs told the Court
that “[t]he dismissal of [Prof. Jewell’s] work will deny
many of the plaintiffs their day in court.” [1256]
Similarly, as to their specific causation experts,
Plaintiffs’ counsel told the Court:
THE COURT: So your view is what – [Dr.
Roberts, one of Plaintiffs’ general causation
expert] shows it’s capable, then your entire case
hangs on the specific causation expert?
MS. BIERSTEIN: I think it always does, Your
Honor. A particular case depends on the casespecific expert.
9/24/15 Hr’g Tr. at 236:20-24. Plaintiffs’ counsel went
on to say that in Daniels and Hempstead, the two trial
cases, “in order for either of those plaintiffs to prove

App. 28
that their diabetes was caused by Lipitor, those are the
experts you are going to look to … the case specifics.”
Id. at 237:2-6.
After extensive briefing and two days of hearings,
this Court held that Plaintiffs’ general causation expert
opinions did not satisfy Daubert because they were not
dose-specific. In re Lipitor (Atorvastatin Calcium)
Mktg., Sales Practices & Prods. Liab. Litig., 2015 WL
6941132, at *6 (D.S.C. Oct. 22, 2015) (“CMO 49”). The
Court held that “Plaintiffs must have expert testimony
that Lipitor causes, or is capable of causing, diabetes at
particular dosages.” Id. Although the Court recognized
that granting summary judgment was an option, see
10/22/15 Hr’g Tr. [1206] at 16:24-17:20, it permitted
Plaintiffs to supplement their experts’ opinions to
address causation by dose. CMO 49, 2015 WL 6941132,
at *6. The Court emphasized that it is Plaintiffs’
experts, not counsel, who must proffer reliable, dosespecific causation opinions. 10/22/15 Hr’g Tr. at 25:1022, 46:5-17. Plaintiffs obtained a further extension of
time to serve supplemental dose reports, and the Court
and parties devoted several more months to discovery,
briefing, and a hearing on the admissibility of
Plaintiffs’ experts’ general causation opinions, which
this Court addressed in CMO 68. See In re Lipitor
(Atorvastatin Calcium) Mktg., Sales Practices & Prods.
Liab. Litig., 2016 WL 1251828, at *5 (D.S.C. Mar. 30,
2016) (“CMO 68”).
Throughout the process, Plaintiffs never asserted
that they could proceed without admissible expert
testimony on general or specific causation, and they
have repeatedly acknowledged the dispositive impact

App. 29
of the Court’s exclusion of their experts’ opinions.
Plaintiffs’ lead counsel told this Court that no case
could survive summary judgment under the Court’s
decision excluding Dr. Murphy’s specific causation
opinion. Nor did any Plaintiff disagree when given a
full and fair opportunity to do so under CMO 65. CMO
81 at 1. When Plaintiffs asked the Court to certify its
expert rulings for interlocutory appeal, they likewise
asserted that “whether [the Court’s expert rulings] are
ultimately upheld is effectively a threshold question for
all of the cases in the MDL.” [1535] at 4. They noted
that if the Court’s rulings are affirmed, cases involving
Lipitor 10, 20, and 40 mg would be subject to dismissal
and would not proceed to summary judgment on any
other issue. Id. at 3-4; [1539] at 3.
Only now, faced with summary judgment, do
Plaintiffs argue otherwise. But their arguments are not
just late, they are wrong. The record confirms that the
medical and scientific issues presented by Plaintiffs’
claims are complex and not susceptible to being
presented to a lay jury without expert testimony.
II.

PLAINTIFFS CANNOT CREATE AN ISSUE
OF FACT ON CAUSATION AT DOSES
BELOW 80 MG BASED ON “NON-EXPERT
EVIDENCE”

“[S]ummary judgment is appropriate where
required expert testimony is absent from the record.”
Mirena, 2016 WL 4059224, at *6. Because Plaintiffs
lack the required expert testimony on general
causation as to Lipitor doses below 80 mg, this Court
need not consider the attorney-selected “non-expert
evidence” and purported “admissions” of general

App. 30
causation on which Plaintiffs claim they can rely in
place of the expert opinions this Court excluded.
Without admissible expert testimony, none of this
material – individually or collectively (even if it is
admissible, which Defendants do not concede) – is
sufficient to create a triable issue of fact on general
causation, and summary judgment is warranted in all
cases involving doses below 80 mg.
Mirena is instructive. As here, after the court there
excluded plaintiffs’ general causation experts, plaintiffs
tried to “create a genuine issue of material fact[] on
that issue through certain documents and testimony
that they argue amount to admissions.” Mirena, 2016
WL 4059224, at *4. Contrary to Plaintiffs’ attempt to
reframe the question as admissibility under FRE 801,
Opp. at 7-9, “the issue here is not so much whether the
alleged admissions are admissible ... but whether as a
matter of substantive products liability law admissions
can substitute for expert evidence of causation.”
Mirena, 2016 WL 4059224, at *8. In Mirena, none of
the cases on which plaintiffs relied, a subset of which
Plaintiffs cite here, supported such a standard, which
is at odds with the “paramount importance of expert
testimony on complex technical issues with which
jurors are unfamiliar.” Id. at *11. “The danger of a jury
speculating on scientific issues means that, at least
absent the clearest and most unambiguous admission
that the product or device in question can cause the
alleged injury, a jury exposed to admissions but not
expert testimony will be without the grounding in
science necessary to determine whether, as a scientific
matter, the events the plaintiff posits can occur in real
life.” Id.; see also id. at *8.

App. 31
A. So-Called Company “Admissions”
Cannot Substitute for Expert Testimony
Plaintiffs contend that “at least four cases …
support the use of admissions to prove general
causation.” Opp. at 9. None of the cases actually does
so. After reviewing these and other cases, the court in
Mirena held that “no court has held that admissions
can substitute for required expert testimony, and this
Court will not be the first.” 2016 WL 405922, at *12.
Plaintiffs rely heavily on the Meridia decisions. See
In re Meridia Prods. Liab. Litig., 328 F. Supp. 2d 791
(N.D. Ohio 2004) (“Meridia 1”), aff’d sub nom. Meridia
Prods. Liab. Litig. v. Abbott Labs., 447 F.3d 861 (6th
Cir. 2006) (“Meridia 2”). Meridia is inapposite. The
warning in its labeling was explicit: “MERIDIA
SUBSTANTIALLY INCREASES BLOOD PRESSURE
IN SOME PATIENTS. REGULAR MONITORING OF
BLOOD PRESSURE IS REQUIRED WHEN
PRESCRIBING MERIDIA.” Meridia 1, 328 F. Supp. 2d
at 810. The district court held that these statements
“constitute[d] admissions of Meridia’s potential to
cause substantial increases in blood pressure”
sufficient to permit plaintiffs to “[meet] their burden of
showing a genuine issue of material fact only with
respect to Meridia’s capacity to cause substantial
increases in blood pressure.” Id. But the district court
“assumed for the sake of argument that no states’ laws
required expert testimony on the issue of general
causation.” Mirena, 2016 WL 4059224, at *9 (citing
Meridia 2, 447 F.3d at 865) (emphasis added). By
contrast, here, as in Mirena, “all jurisdictions have
such a requirement”: “Fatal to Plaintiffs’ argument, the

App. 32
district court in Meridia 1 specifically noted that ‘in
cases originating from states that require expert
testimony in mass tort cases, Plaintiffs’ claims would
fail if the Plaintiffs did not offer admissible expert
testimony tending to establish general causation.’ That
is the case here.” Id. (quoting Meridia 1, 328 F. Supp.
2d at 802). Because the causation issues here are
“outside the realm of common knowledge and
experience of a lay juror, which in all jurisdictions
means that expert testimony is required, Meridia 1 and
Meridia 2 are not applicable.” Id.
Meridia is also an outlier in its treatment of
labeling statements as admissions. Other courts have
recognized that FDA-approved warnings are not
admissions of general causation and are “no substitute
for expert testimony that establishes causation in
terms of reasonable probability.” Meade, 2010 WL
4909435, at *7; accord Mirena, 2016 WL 4059224, at
*14; Nelson v. Am. Home Prods. Corp., 92 F. Supp. 2d
954, 968-69 (W.D. Mo. 2000). In addition, “the
statements [in the label at issue here] that Plaintiffs
argue are sufficient to raise a question of fact are so
different from the statement on Meridia’s label that
they would not suffice as a substitute for expert
testimony.” Mirena, 2016 WL 4059224, at *9. The
strength of the unequivocal statement that Meridia
causes high blood pressure in some patients, along with
deposition testimony that the labeling language was
the product of a consensus reached through discussions
with the FDA, was critical to the court’s holding there.
See Meridia 2, 447 F.3d at 866. The Sixth Circuit
distinguished the Meridia label’s statement from
“milder warning language such as ‘is associated with.’”

App. 33
Id. Unlike the causation warning in the Meridia label,
the language on which Plaintiffs rely in the Lipitor
label does not state that Lipitor causes diabetes.
Rather, it states: “Increases in HbA1c and fasting
serum glucose levels have been reported with HMGCoA reductase inhibitors, including LIPITOR.” March
2015 Lipitor Label (emphasis added). Neither this nor
any of the other purported “admissions” on which
Plaintiffs rely is analogous to the bolded warning about
causation in the product labeling in Meridia.
Likewise, neither Fourth Circuit decision on which
Plaintiffs rely supports their contention that a
company document can substitute for expert testimony
here. Westberry v. Gislaved Gummi AB, 178 F.3d 257
(4th Cir. 1999), did not “find[] that [a] statement
contained in defendant’s [Material Safety Data Sheet
(MSDS)] was admissible evidence of general causation.”
Opp. at 10. The court did not address whether, much
less hold that, the warning in the MSDS that
“inhalation of [talc] dust in high concentrations
irritates mucous membranes” could substitute for
expert testimony that plaintiff’s workplace exposure to
talc dust aggravated his sinus condition. Westberry, 178
F.3d at 264. It merely noted the statement in the
MSDS “in the context of evaluating whether the
plaintiffs’ expert had a sufficient basis for his specific
causation opinion.” Mirena, 2016 WL 4059224, at *9.
The court’s discussion “shows no more than that an
MSDS is properly considered by an expert.” Id.
Moreover, the unequivocal statement of causation in
the MSDS bears no resemblance to the labeling and
other purported “admissions” of causation on which
Plaintiffs attempt to rely in place of expert testimony

App. 34
here. This Court previously distinguished Westberry
because it was undisputed that substantial exposure to
talc, of which there was evidence, could cause injury.
See CMO 49, 2015 WL 6941132, at *5. Even there,
however, there was no question that expert testimony
was required.
Similarly, Lewis v. Johnson & Johnson, 601 F.
App’x 205 (4th Cir. 2015) (per curiam), a mesh device
case, does not “accept[] that admissions by defendant’s
employees could prove general causation as a matter of
law.” Opp. at 10. The Fourth Circuit affirmed summary
judgment on plaintiff’s failure-to-warn claims,
exclusion of certain expert medical causation
testimony, and a directed verdict on plaintiff’s design
defect claim based on a lack of expert testimony. Lewis,
601 F.App’x at 209-12. The court “agree[d] with the
district court that Texas law required [plaintiff] to
present expert testimony establishing a causal link
between [the] alleged defects in the [device] and her
injuries.” Id. at 211. Plaintiff’s “failure to present such
expert testimony doomed her design defect claims.” Id.
Plaintiffs ignore this holding and rely on dictum that
follows, where the court observed that plaintiff had
“not argue[d] that the remaining testimony – by, for
instance, employees of the defendant – establishes
causation.” Id. at 212. Mirena rejected plaintiffs’
reliance on the same sentence, noting that it “does not
hold that, or even discuss whether, stray statements of
employees are sufficient to raise an issue of fact on the
causation element in cases where expert testimony is
required to prevent a jury from speculating.” Mirena,
2016 WL 4059224, at *9 n.19. This Court should do the
same.

App. 35
B. Plaintiffs Have Not Identified Any
Sufficient Evidence of General
Causation that Could Replace Expert
Testimony
Plaintiffs contend that they should be permitted to
establish general causation through attorney argument
about cherry-picked statements, untethered to any
scientific standard or method, much less the
epidemiological method for demonstrating a causal
relationship that the Court has recognized is necessary.
CMO 68, 2016 WL 1251828, at *1-3. Plaintiffs’ “nonexpert evidence” cannot stand in for admissible expert
testimony. None of the statements they cite creates a
material fact as to general causation below 80 mg, and
Plaintiffs’ mischaracterization of them as admissions of
causation underscores why the law requires reliable
expert testimony here.
1. Emails and Deposition Testimony
In the place of expert testimony, Plaintiffs seek to
substitute an informal email exchange between Pfizer
employee David DeMicco and Dr. David Waters. See
Pls.’ Ex. 1. The 2009 emails concern post hoc statistical
analyses of data from TNT and SPARCL, which were
part of the peer-reviewed 2011 Waters study that was
the subject of extensive expert discovery, briefing,
hearings, and opinions by the Court. See, e.g., CMO 68,
2016 WL 1251828, at *4, *7. Plaintiffs contend that
DeMicco’s informal response to preliminary
observations is “an admission of general causation” at
all doses of Lipitor. Opp. at 12. It is nothing of the sort.
As this Court observed, these emails are not peerreviewed, are not expert testimony, are not a sufficient

App. 36
substitute for expert analysis, and do not amount to an
admission or any evidence, much less scientifically
reliable evidence, “that 10 mg of Lipitor can cause type
2 diabetes, no different than 80 mg,” Opp. at 12. See
9/24/15 Hr’g Tr. at 85:14-15, 88:21-89:12; 10/22/15 Hr’g
Tr. at 86:19-87:23. DeMicco testified thatxxxxxxxxxxxx
x x x x x x x x x x x x x x x x x x x x x x x x x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxx. At most, the emails discuss “increased
risk,” or a potential association, not causation. It is
“well established in case law that an association is
insufficient to prove causation.” CMO 68, 2016 WL
1251828, at *17 & n.23; see also In re Accutane Prods.
Liab., 511 F. Supp. 2d 1288, 1291 n.2, 1303 (M.D. Fla.
2007), aff’d 291 F. App’x 249 (11th Cir. 2008). Without
bias, chance, and confounding adequately accounted
for, and without a proper assessment of the Bradford
Hill factors, the statement that an exposure “increases
the risk of a particular injury” cannot substitute for the
word “causation.”2 See CMO 68, 2016 WL 1251828, at
*3; 9/24/15 Hr’g Tr. at 115:23-116:11; 218:8-19; 221:19222:15.
Other courts have rejected similar attempts by
plaintiffs and experts to rely on employee emails
2

Neither of the cases Plaintiffs cite as “defining general causation”
as increased risk, Opp. at 12, supports their position that they can
proceed without admissible expert testimony on causation. Both
cases addressed the admissibility of plaintiffs’ experts’ causation
opinions and required that the expert identify a valid causal
association using a reliable scientific method. See Kuhn v. Wyeth,
Inc., 686 F.3d 618, 633 (8th Cir. 2012); Jenkins v. Slidella L.L.C.,
2008 WL 2649510, at *4-6 (E.D. La. June 27, 2008), aff’d, 318 Fed.
App’x 270 (5th Cir. 2009).

App. 37
“raising questions about associations” as evidence of
causation. Zoloft, 2016 WL 1320799, at *9; see also
Mirena, 2016 WL 4059224, at *15-16; In re Zoloft
Prods. Liab. Litig., 2015 WL 7776911, at *12 (E.D. Pa.
Dec. 2, 2015). “[S]tatements set forth in ... company
documents ... are not typical of documents that experts
would generally rely upon in a causation analysis, in
part because ‘[t]he cited studies themselves are a better
source of information regarding the methods used and
the results of studies of the association of interest.’”
Zoloft, 2016 WL 1320799, at *9 (citation omitted). “[I]n
the absence of expert testimony, a jury would be
required to speculate on the meaning of” employee
statements pulled out of context “and on whether there
is any scientific basis for believing that Plaintiffs’
theory of general causation is sound.” Mirena, 2016 WL
4059224, at *16. The policy concerns are also
significant:
[I]t might stifle free discussion of adverse event
reports and potential label changes, and
discourage pharmaceutical companies and other
manufacturers from open discourse, if such
discussion might later be held to concede the
issue of general causation. This danger is
without any compensating benefit, given that
comments of corporate employees, unmoored
from their context and created in the conduct of
daily business rather than through the formal
procedures applicable to expert witnesses, are so
inherently unlikely to be clear and definite
enough to prevent the jury from being left to

App. 38
speculate as to whether a product is capable of
causing a particular injury.
Id. at *12; see also id. at *15.
Plaintiffs also try to rely on DeMicco’s deposition
testimony that xxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxx. Opp. at 12. Like the email, this
testimony does not constitute an admission or other
reliable evidence that Lipitor causes diabetes at 10 mg.
See 10/22/15 Hr’g Tr. at 85:22-88:3. Under this Court’s
extensive analysis of Plaintiffs’ experts’ opinions and
data sources at 10 mg, which included the Waters 2011
TNT analysis, it would be unreliable and misleading to
proffer Waters 2011 as evidence of general causation at
10 mg. See, e.g., CMO 68, 2016 WL 1251828, at *8-11.
It would be even more unreliable and misleading to
proffer DeMicco’s testimony about it in place of expert
testimony. “[A]bsent expert testimony, a lay jury could
not reasonably evaluate the meaning or reliability of
such statements. They thus cannot serve as a
substitute for expert testimony.” Mirena, 2016 WL
4059224, at *17.
2. Japanese and U.S. Labels
Pfizer has not “admitted that Lipitor causes
diabetes on its own drug labels,” Opp. at 13, and none
of the labeling statements Plaintiffs cite provide
evidence of general causation. This Court has already
held that it would be unreliable for Plaintiffs’ experts
to draw scientific inferences about causation from the
2012 FDA label change because the FDA applies a
different standard than the causation standard that

App. 39
applies in a products liability action: “With regard to
the FDA label, the decision by the FDA to require
warnings on a drug label, standing alone, does not
suffice to establish causation.” CMO 68, 2016 WL
1251828, at *9. In addition, “allowing a label to
substitute for expert testimony would discourage
manufacturers from exercising caution, providing
potential users with less information rather than more
where the science is debatable, a result inimical to the
public health.” Mirena, 2016 WL 4059224, at*14; see
also supra Part II.A. Moreover, as this Court has
observed with respect to the 2012 FDA-required
warning that “[i]ncreases in HbA1c and fasting serum
glucose levels have been reported with HMG-Co-A
reductase inhibitors, including Lipitor,” “experiencing
an increase in glucose levels is not synonymous with
developing diabetes.” CMO 68, 2016 WL 1251828, at *8
n.11.
For similar reasons, the Japanese Lipitor label does
not provide evidence of general causation at doses
below 80 mg. The labeling language that Japan
required in 2003 based on an entirely different
standard and regulatory system than the FDA applies
states that “[h]yperglycemia and diabetes may occur”
with the use of Lipitor.3 This statement is neither

3

Courts have excluded evidence of foreign labels and actions as
irrelevant and prejudicial. See, e.g., Hurt v. Coyne Cylinder Co.,
956 F.2d 1319, 1327 (6th Cir. 1992); Deviner v. Electrolux Motor,
AB, 844 F.2d 769, 773 (11th Cir. 1988); In re Mirena IUD Prods.
Liab. Litig., 2016 WL 890251, at *53, *60 (S.D.N.Y. Mar. 8, 2016);
In re Seroquel Prods. Liab. Litig., 601 F. Supp. 2d 1313, 1318 (M.D.
Fla. 2009); In re Viagra Prods. Liab. Litig., 658 F. Supp. 2d 950,

App. 40
based on the causation standard that applies in
litigation nor a statement that Lipitor causes diabetes.
Although Plaintiffs now contend that the Japanese
label “suffices to create a genuine factual dispute as to
general causation,” they previously asserted that
“Plaintiffs do not suggest that the Japanese evidence,
or the label change, is sufficient evidence to show that
Lipitor elevates glucose or causes diabetes.” [1159] at
17. They cannot avoid summary judgment by relying on
a foreign label they characterized as marginal and
insufficient evidence of causation.
3. NDA Glucose Data
Plaintiffs also contend that statements about NDA
glucose data are “admissions that Lipitor can cause
type 2 diabetes.” Opp. at 15. Plaintiffs disregard the
expert reports, discovery, briefing, hearings, and
decisions addressing the NDA data, including this
Court’s exclusion of their experts’ analyses of it. See In
re Lipitor (Atorvastatin Calcium) Mktg., Sales Practices
& Prods. Liab. Litig., 145 F. Supp. 3d 573, 577-588
(D.S.C. 2015) (“CMO 54”), motion for reconsideration
granted in part, amended by 2016 WL 827067 (D.S.C.
Feb. 29, 2016). For example, beyond excluding Prof.
Jewell’s analyses of the NDA data as misleading and
unreliable, the Court excluded his opinion that the
“[NDA] data should have alerted Parke-Davis and
[Pfizer] to the possibility of increased risk of new-onset
diabetes associated with atorvastatin treatment.” Id. at
579. As the Court noted, the glucose data and NDA

965-66 (D. Minn. 2009); In re Baycol Prods. Litig., 532 F. Supp. 2d
1029, 1054 (D. Minn. 2007).

App. 41
statements that Plaintiffs now claim are “admissions”
of causation do not provide evidence of general
causation because, as Plaintiffs conceded, “a single
elevated glucose measurement is insufficient to infer
diabetes.” Id. Plaintiffs provide no support for their
position that notwithstanding the Court’s ruling that
the NDA glucose data cannot support an expert opinion
that Lipitor causes diabetes, they can proffer the same
data as evidence of general causation without expert
testimony.
4. Website Statement About Adverse
Event Reports
Finally, Plaintiffs contend that a statement on the
Lipitor website – “Tell your doctor if you have diabetes.
Elevated blood sugar levels have been reported with
statins, including LIPITOR” – “constitutes yet a further
admission of the general causation connection between
Lipitor and diabetes.” Opp. at 17. This statement,
which is consistent with the FDA-approved Lipitor
label, is not an admission of or evidence of general
causation. See supra Parts II.A, B.2. The labeling and
website language refer to adverse event reports of
elevated blood sugar, not causation of diabetes. It is
well established that “[c]ase reports are not reliable
evidence of causation,” Mirena, 2016 WL 4059224, at
*16, and are “insufficient to create a material question
of fact on general causation.” In re Zoloft, 2016 WL
1320799, at *9; accord McClain v. Metabolife Int’l, Inc.,
401 F.3d 1233, 1250 (11th Cir. 2005); Accutane, 511 F.
Supp. 2d at 1296-97; Soldo v. Sandoz Pharms. Corp.,
244 F. Supp. 2d 434, 537, 541 (W.D. Pa. 2003).

App. 42
In sum, this Court should reject Plaintiffs’
“admissions” argument. The law does not permit
Plaintiffs to defeat summary judgment through lawyer
argument about “evidence” that the Court already held
cannot provide a reliable basis for an expert’s opinion
on causation or that Plaintiffs’ experts did not even
consider scientifically reliable enough to support a
causation opinion. Here, as in Mirena, “to the extent
[the purported admissions] support Plaintiffs’ thesis at
all, they are so patently less reliable than admissible
expert testimony that they cannot reasonably
substitute for such testimony.” Mirena, 2016 WL
4059224, at *12.
III.

PLAINTIFFS
CANNOT
PROCEED
BECAUSE THEY LACK ADMISSIBLE AND
SUFFICIENT EVIDENCE OF SPECIFIC
CAUSATION
A. Plaintiffs Waived Any Contention that
these Cases Are Not Ripe for Summary
Judgment on the Ground of Specific
Causation

Plaintiffs previously conceded that their cases were
subject to summary judgment on the issue of specific
causation based on this Court’s ruling in CMO 55 and
the order-to-show-cause process the Court adopted,
with Plaintiffs’ consent, in CMO 65. Pursuant to that
process, which was intended to streamline disposition
of the cases and facilitate Plaintiffs’ ability to pursue
an appeal, Plaintiffs admitted that none of their cases
could survive summary judgment if CMO 55 is correct.
As a result, Pfizer did not need to separately
demonstrate that summary judgment is warranted on

App. 43
the issue of specific causation under the law of every
state or under the individual factual circumstances of
every case. But as the Court observed in CMO 81, in
their opposition, Plaintiffs ignore this fact and assert
novel arguments about various state laws and
hypothetical factual scenarios as if CMO 65 never
existed. CMO 81 at 1, 3.
In their single reference to it, Plaintiffs
mischaracterize CMO 65. They describe it as an order
directing “any plaintiff who believed she could adduce
a differential diagnosis that could survive Daubert
notwithstanding the exclusion of Dr. Murphy’s expert
testimony in Hempstead to come forward with such
evidence.” Opp. at 4. CMO 65 did no such thing.
Instead, it required any Plaintiff who disputed lead
counsel’s position and who thought her case could
survive summary judgment to state how her case is
different. Such a case would thereafter be subject to a
separate expert discovery schedule. In CMO 66, issued
the same day, the Court vacated the trial schedule
based in part on Plaintiffs’ counsel’s statement that
“Plaintiffs have no pending case in the MDL that can
survive summary judgment on specific causation under
the standards set forth in the Court’s order disallowing
the testimony of Dr. Murphy under Rule 702 and
Daubert.” [1353] The Court advised that it would
“proceed to address the outstanding motions in this
case, including dispositive motions for summary
judgment, and will not set any other case for a
bellwether trial unless circumstances change.” Id.
Aside from certain Plaintiffs with pending remand
motions who filed a non-substantive response, no

App. 44
Plaintiff responded to CMO 65 in any manner,
including by advancing any of the arguments Plaintiffs
now assert. Plaintiffs disregard the impact of that
Order and the concession they made by not responding
to it. Without seeking leave or providing any
justification for their untimely arguments, they
attempt to do now what the Order required them to do
six months ago: “dispute[] the position taken by
Plaintiffs’ Lead Counsel and assert[] that … case[s] can
survive summary judgment on specific causation even
if the Court’s ruling in CMO 55 is upheld on appeal.”
CMO 65. This Court need not consider Plaintiffs’
untimely arguments, made only after the Court
adopted a framework for deciding summary judgment
based on a fully-developed record that includes CMO
65. In the Fourth Circuit, “[all] litigants are subject to
the time requirements and respect for court orders
without which effective judicial administration would
be impossible.” Ballard v. Carlson, 882 F.2d 93, 96 (4th
Cir. 1989). Plaintiffs are bound by CMO 65 and their
inaction under it and have waived the contrary
arguments they seek to assert for the first time now.
Courts routinely grant dispositive relief where parties
fail to respond to orders to show cause. See, e.g.,
Blaesing v. Nat’l Transp. Safety Bd., 993 F.2d 881, at
*2-3 (Table) (9th Cir. 1993); Woolridge v. Potomac Coll.
L.L.C., 919 F. Supp. 2d 7, 7 (D.D.C. 2013); Garcia v.
Spirit Airlines, Inc., 2011 WL 2312562, at *1-2 (S.D.
Fla. June 8, 2011); Crews v. Platolene 500, Inc., 2006
WL 1004908, at *1 (S.D. Ill. Apr. 13, 2006).
This Court has, nevertheless, provided Plaintiffs
another opportunity to show whether they can survive
summary judgment. CMO 81 at 3-4. Plaintiffs’ deadline

App. 45
to try to do so has not yet passed, but the state law
standards confirm that an argument by any plaintiff in
this MDL that she can proceed without expert
testimony will fail on its merits.
B. Plaintiffs’ Contention that They Can
Prove Specific Causation Without
Admissible Expert Testimony Fails on
the Merits
Admissible and sufficient expert testimony is
required to establish medical causation, including
specific causation, in all jurisdictions in cases like these
involving complex medical and scientific issues.
Plaintiffs’ cases do not show otherwise. The cases they
cite for the generic notion that a plaintiff may rely on
circumstantial evidence to establish causation do not
support their contention that they can proceed without
sufficient expert evidence in these cases. See, e.g.,
Carter Farms Co. v. Hoffman-Laroche, Inc., 492 P.2d
1000 (N.M. Ct. App. 1971). As this Court has observed,
“the circumstances where [non-expert] evidence is
sufficient to prove causation are generally limited to
circumstances where ‘general experience and common
sense will enable a lay person to determine the causal
relationship.’” CMO 81 at 2-3 (quoting Byrd v.
Delasancha, 195 S.W.3d 834, 837 (Tex. Ct. App. 2006)).
Plaintiffs rely on a number of accident cases like Byrd,
see also Pagett v. N. Elec. Supply Co., 167 N.W.2d 58,
64 (Minn. 1969); cases involving medical causation in
animals, not humans, that nevertheless involved expert
testimony and did not hold that causation could be
established without it, see, e.g., Carter Farms, 492 P.2d
at 1002; Reid v. Brown, 240 P.2d 213, 215 (N.M. 1952);

App. 46
and cases where medical causation was undisputed,
see, e.g., Richards v. Upjohn Co., 625 P.2d 1192, 1195
(N.M. Ct. App. 1980). None permits Plaintiffs to
proceed without expert testimony here.
Plaintiffs also cannot support their claim that
Plaintiffs in “many states” need only proffer a specificcausation opinion that it is “possible” that Lipitor
caused her diabetes. Opp. at 20. Plaintiffs do not cite a
single case holding that a plaintiff in a drug product
liability action can satisfy her burden of proof on
medical causation “by a combination of expert evidence
of possible causation and other non-expert evidence.”
Id. at 25. Instead, their cases confirm that “[i]n toxic
tort cases, proof of causation generally requires reliable
expert testimony which is based, at the least, on the
determination that there was reasonable probability
that the negligence caused the injury.” McCarney v. PA
Lex Glen, L.L.C., 784 S.E.2d 438, 440 (Ga. Ct. App.
2016). Unlike in the cases on which Plaintiffs rely that
involve alleged injuries from accidents,4 acute

4

See, e.g., Ex parte McInish, 47 So.3d 767 (Ala. 2008); Hills v.
Ozark Border Elec. Co-op., 710 S.W.2d 338 (Mo. Ct. App. 1986);
Noblesville Casting Div. of TRW, Inc. v. Prince, 438 N.E.2d 722
(Ind. 1982); Pygman v. Helton, 134 S.E.2d 717 (W. Va. 1964);
Kimmie v. Terminal R. R. Ass’n of St. Louis, 66 S.W.2d 561 (1933).

App. 47
exposure,5 or medical implant or surgery,6 claims that
Lipitor caused diabetes, a common disease with
multiple risk factors, are not subject to a combination
of medical and “non-medical” evidence. Rather, they
require “expert medical evidence standing alone, in
which cases the evidence must naturally be based at
least on reasonable probability.” Estate of Patterson v.
Fulton-DeKalb Hosp. Auth., 505 S.E.2d 232, 234-35
(Ga. Ct. App. 1998) (internal quotation marks and
citation omitted); see also Nelson v. Matrixx Initiatives,
Inc., 592 F. App’x 591, 592 (9th Cir. 2015). This Court’s
decisions addressing Plaintiffs’ specific causation
expert testimony in Daniels and Hempstead highlight
the need for an expert employing a “reliable
methodology to determine whether Lipitor is a
substantial contributing factor in [a plaintiff’s]
development of diabetes.” In re Lipitor (Atorvastatin
Calcium) Mktg., Sales Practices & Prods. Liab. Litig.,
2016 WL 2851445, at *17 (D.S.C. May 11, 2016) (“CMO
76”); In re Lipitor (Atorvastatin Calcium) Mktg., Sales

5

See, e.g., McCarney, 784 S.E.2d at 441; Rodrigues v. GeorgiaPacific Corp., 661 S.E.2d 141 (Ga. Ct. App. 2008); Estate of
Patterson v. Fulton-DeKalb Hosp. Auth., 505 S.E.2d 232 (Ga. Ct.
App. 1998); Coca-Cola Bottling Co. of Tucson v. Fitzgerald, 413
P.2d 869 (Ariz. Ct. App. 1966); Winter v. Honeggers’ & Co., 215
N.W.2d 316 (Iowa 1974); Hagy v. Allied Chem. & Dye Corp., 265
P.2d 86 (Cal. Dist. Ct. App. 1953).

6

See, e.g., Smith v. Hines, 261 P.3d 1129 (Okla. 2011); Mitzelfelt v.
Kamrin, 584 A.2d 888 (Penn. 1990); Schwab v. Tolley, 345 So.2d
747 (Fla. Dist. Ct. App. 1977).

App. 48
Practices & Prods. Liab. Litig., 150 F. Supp. 3d 644,
661 (D.S.C. Dec. 11, 2015) (“CMO 55”).7
The Fourth Circuit in Bard manifestly did not state
that expert causation testimony framed in terms of a
“possibility” is legally sufficient evidence. See In re C.R.
Bard, Inc., MDL No. 2187, Pelvic Repair Sys. Prods.
Liab. Litig., 810 F.3d 913, 929-30 (4th Cir. 2016). To
the contrary, it expressly rejected that notion. Bard
addressed the Georgia Supreme Court’s decision in
Zwiren v. Thompson, 578 S.E.2d 862 (Ga. 2003), for the
proposition that, in medical malpractice cases, the
causation opinion need not be stated in terms of
“reasonable medical certainty,” but rather in terms of
“reasonable medical probability.” Bard, 810 F.3d at
930. “[E]ven in malpractice cases, ‘Georgia case law
requires only that an expert state an opinion regarding
proximate causation in terms stronger than that of
medical possibility.’” Id. That is, it must be at least a
“reasonable medical probability.” Possibility is not
enough. Further, these are not “medical implant cases,”
where, according to Bard, “the need for exclusively
7

In CMO 55, this Court found Dr. Murphy’s testimony
inadmissible. Whether an opinion is admissible under FRE 702
and Daubert – and is, thus, relevant, reliable, and helpful to the
trier of fact (see Opp. at 27) – is a question ultimately governed by
federal law. See Bryte v. Am. Household, Inc., 429 F.3d 469, 475-76
(4th Cir. 2005). To be sure, Plaintiffs’ citation to the Ninth Circuit’s
decision on remand in Daubert, which states that the plaintiff’s
“traditional burden” of proof is that of being “the result of the
accused cause and not some independent factor” to a standard of
“more likely than not,” Daubert v. Merrell Dow Pharmaceuticals,
Inc., 43 F.3d 1311, 1320 (9th Cir. 1995), is consistent with the
“preponderance-of-evidence burden” cited by this Court. CMO 55,
150 F. Supp. 3d at 649.

App. 49
medical evidence is abrogated.” Id. (citing Allison v.
McGhan Med. Corp., 184 F.3d 1300, 1320 (11th Cir.
1999)). Moreover, in Allison, which was a medical
implant case, the Eleventh Circuit, applying Georgia
law, held – in contrast to the injuries that can result
from blunt force trauma in an automotive accident –
“[t]hat breast implants can and did cause systemic
disease in Allison is not a natural inference that a juror
could make through human experience. Thus, medical
expert testimony was essential to prove causation in
this case.” 184 F.3d at 1320 (citation omitted). So, too,
expert testimony is essential to prove causation here.
Plaintiffs’ hypotheticals only confirm that they
cannot satisfy their burden under any state’s law
without admissible and sufficient expert testimony on
specific causation. Plaintiffs contend, for example, that
“the facts and data relied on by Dr. Murphy surely
would have been sufficient to support a reliable
conclusion that specific causation was possible,” and
that such an opinion “would be sufficient to survive
summary judgment if plaintiffs could adduce
circumstantial or other non-expert evidence to permit
a reasonable jury ‘to make the leap from a possibility to
a probability.’” Opp. at 28 (citing CMO 55 at 27). They
also suggest that an 80 mg plaintiff with two risk
factors could proceed based on SPARCL and rely on
“non-expert evidence to bridge the gap between 40%
and 50% probability” of specific causation. Id.; id. at 31.
Both scenarios would invite exactly the kind of jury
speculation about scientific issues based on “non-expert
evidence” that forecloses Plaintiffs’ general causation
“admissions” argument.

App. 50
C. Summary Judgment Can and Should Be
Granted by This Court
Lastly, Plaintiffs contend – for the first time – that
this Court should leave summary judgment to be
resolved by the transferor courts. Plaintiffs have not
identified a single plaintiff who can meet her burden on
specific causation,8 and they provide no reason for this
Court to discard the summary judgment process it
adopted, beginning with an order-to-show-cause
procedure to which they consented. With full notice and
knowledge, Plaintiffs conceded that their cases were
subject to summary judgment in this Court because no
plaintiff could proffer specific causation testimony that
would satisfy Daubert under this Court’s rulings. This
Court has afforded Plaintiffs another opportunity to try
to show that individual cases can survive summary
judgment. Defendants reserve the right to respond to
any Plaintiff who comes forward under CMO 81, but
because Plaintiffs cannot overcome their inability to
proffer admissible expert testimony on specific
causation, summary judgment should be granted as a
matter of law.
It is well settled that MDL courts “have the clear
power” to “dispose[] of entire cases” on “motions for
summary judgment under Rule 56.” David F. Herr,
Multidistrict Lit. Man. § 9:21 (2016); see also In re
8

Plaintiffs purport to summarily characterize certain individual
cases and attach eight Plaintiff Fact Sheets to their opposition.
Pls.’ Exs. 10-17. None of these Plaintiffs responded to CMO 65, and
none can avoid summary judgment through untimely attorney
argument that contradicts their prior concession about the record
in these cases under CMO 65.

App. 51
Donald J. Trump Casino Secs. Litig.-Taj Mahal Litig.,
7 F.3d 357, 367-68 (3d Cir. 1993). The Federal Judicial
Center’s guidebook states that transferee courts should
“[u]se Daubert hearings to assess the validity of the
general scientific principles at issue, as well as the
testimony of the proffered experts, and enter
summary judgment if the underlying scientific
principles are not properly established.” Fed. Judicial
Ctr., Managing Multidistrict Litigation in Products
Liability Cases, at 37 (2011) (emphasis added). The
guidebook recognizes that MDL courts “may terminate
… all actions in the MDL docket by ruling on motions
… for summary judgment.” Id. at 4; see also, e.g., In re
Temporomandibular Joint (TMJ) Implants Prods.
Liab. Litig., 97 F.3d 1050, 1055 (8th Cir. 1996); Mirena,
2016 WL 4059224, at *17-18; Zoloft, 2016 WL 1320799,
at *11; In re Nexium (Esomeprazole) Prods. Liab. Litig.,
2014 WL 5313871 (C.D. Cal. Sept. 30, 2014). “In
practice … the vast majority of transferred cases are
disposed of completely in the transferee court, either
through pretrial dispositions such as summary
judgment, or by trial.” In re Food Lion Inc., Fair Labor
Standards Act Litig., 73 F.3d 528, 532 (4th Cir. 1996).
Simply put, an MDL court has the same responsibility
as any other court to dismiss cases on summary
judgment where, as here, plaintiffs lack admissible and
sufficient evidence to establish an essential element of
their claims.
IV.

THIS COURT HAS SUBJECT MATTER
JURISDICTION IN ALL CASES

This Court has subject matter jurisdiction over all
cases in the MDL and the Court’s expert rulings

App. 52
warrant summary judgment in every case.9 Certain
Plaintiffs contend that their cases should not be subject
to Defendants’ motion because they moved to remand.
[1583, 1584] Pfizer incorporates its oppositions to
Plaintiffs’ remand motions and its objections to
recommendations by the Magistrate Judge. To the
extent the Court defers ruling on summary judgment
in cases where Plaintiffs have moved to remand,
Defendants reserve the right to renew their motion and
seek other relief at an appropriate time.
CONCLUSION
For the foregoing reasons and those set forth in
Defendants’ opening brief, the answer to the question
of “whether any plaintiff in this MDL can survive
summary judgment without expert testimony on
causation,” CMO 81, is no. Thus, this Court should
grant Defendants’ motion for summary judgment.
Dated: August 12, 2016
By : /s/ Mark S. Cheffo
Mark S. Cheffo
Sheila L. Birnbaum
Bert L. Wolff
Rachel Passaretti-Wu
9

As to Plaintiffs with remand motions who asserted that they did
not intend to act under CMO 65, the Court can issue a similar
order after addressing the remand motions. In addition, the
Plaintiffs who did not respond to CMO 65 include hundreds who
only later moved for remand. They did so after this Court issued
its expert rulings and after having participated in the MDL for
months to years. See [1390, 1505, 1593]. Courts have rejected such
forum shopping.

App. 53
Mara Cusker Gonzalez
Quinn Emanuel Urquhart & Sullivan, LLP
51 Madison Avenue, 22nd Floor
New York, New York 10010-1601
Telephone: (212) 849-7000
Facsimile: (212) 849-7100
MarkCheffo@quinnemanuel.com
SheilaBirnbaum@quinnemanuel.com
BertWolff@quinnemanuel.com
RachelPassarettiWu@quinnemanuel.com
MaraCuskerGonzalez@quinnemanuel.com
Michael T. Cole
Nelson Mullins Riley & Scarborough LLP
151 Meeting Street/Sixth Floor
Post Office Box 1806 (29402-1806)
Charleston, SC 29401
Telephone: (843) 853-5200
Facsimile: (843) 722-8700
mike.cole@nelsonmullins.com
David E. Dukes
J. Mark Jones
Amanda S. Kitts
Nelson Mullins Riley & Scarborough LLP
1320 Main Street / 17th Floor
Post Office Box 11070 (29211-1070)
Columbia, SC 29201
Telephone: (803) 799-2000
Facsimile: (803) 256-7500
david.dukes@nelsonmullins.com
mark.jones@nelsonmullins.com
amanda.kitts@nelsonmullins.com

App. 54
Attorneys for Defendants Pfizer Inc.,
Pfizer International L.L.C., and
Greenstone L.L.C.
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 55

APPENDIX E
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA WESTERN DIVISION
HONORABLE CORMAC J. CARNEY,
U.S. DISTRICT JUDGE
Certified
Case No. 8:17-mc-00005-CJC-JPR
[Dated February 1, 2017]
_______________________
IN RE: PFIZER
)
)
_______________________ )

REPORTER’S TRANSCRIPT OF
STATUS CONFERENCE
WEDNESDAY, FEBRUARY 1, 2017
9:12 A.M.
SANTA ANA, CALIFORNIA
__________________________________________
DEBBIE HINO-SPAAN, CSR 7953, CRR
FEDERAL OFFICIAL COURT REPORTER
411 WEST FOURTH STREET, ROOM 1-191
SANTA ANA, CALIFORNIA 92701-4516
dhinospaan@yahoo.com

App. 56
[p.2]
APPEARANCES OF COUNSEL:
FOR THE PLAINTIFFS:
HEARD ROBINS CLOUD LLP
BY: BILL ROBINS III, ESQ.
JUSTIN R. KAUFMAN, ESQ.
808 Wilshire Boulevard
Suite 450
Santa Monica, California 90401
(310) 929-4200
FOR THE DEFENDANT PFIZER, INC.
QUINN
EMANUEL
URQUHART
SULLIVAN, LLP
BY: MARK CHEFFO, ESQ.
51 Madison Avenue
22nd Floor
New York, New York 10010
(212) 849-7000

&

QUINN
EMANUEL
URQUHART
SULLIVAN, LLP
BY: J.D. HORTON, ESQ.
865 South Figueroa Street
10th Floor
Los Angeles, California 90017-2543
(213) 443-3000

&

ALSO PRESENT:
Charles G. “Chip” Orr, Esq.
Cherisse H. Cleofe, Attorney at Law
Lisa A. Gorshe, Attorney at Law

App. 57
Habib Nasrullah, Esq.
Sally Hosn, Attorney at Law
Matthew R. Lopez, Esq.
Thomas Sims, Esq.
[p.3]
SANTA ANA, CALIFORNIA;
WEDNESDAY, FEBRUARY 1, 2017
9:12 A.M.
--THE COURT: Good morning. All right. Well, I
want to thank all of you for being here. I thought it
would be productive if we had a brief chat and I gave
you some of my thoughts about how I think we should
proceed, and then I’d like to hear from any of you.
There’s not that many people here. I was preparing for
over 30 lawyers, I guess.
How many do we have right now on the docket,
Melissa?
THE COURTROOM DEPUTY: I don’t know. 30,
40, maybe.
THE COURT: Looks like about 30 or 40 lawyers,
but looks like we only have about eight or nine on the
plaintiff’s side. What I thought needs to be done is I
have to decide the jurisdictional issue, whether I have
jurisdiction over any of these cases. And I think the
total now is up to about 130 cases. And so what I want
to do is focus on that issue. If I have jurisdiction, I have
jurisdiction. And then we can talk about case
management of the case. If I don’t have jurisdiction

App. 58
over any of these cases, they’re going back to State
Court.
So I guess maybe my question is more for the
plaintiffs’ group, is how best can we tee up the
jurisdictional issue? Can we have one consolidated
motion, or do we have to have a few motions because
depending on the case, the jurisdictional
[p.4]
analysis is different? And I don’t profess to say I know
the plaintiffs’ cases very well, and so I’ll be looking for
guidance. And what I thought I would do is just tee
that issue up to you and then give you a few moments
to chat among yourselves, and then you can let me
know how best to proceed.
I assume, based on the status report submitted by
Pfizer, that the simpler, the fewer motions, the better,
that you would prefer to do consolidated opposition.
But I need to know on the plaintiff’s side are we talking
about one motion, two motions, three motions, four
motions?
MR. ROBINS: May I address the Court, Your
Honor?
THE COURT: Please. If you could just say who
you are and who you represent.
MR. ROBINS: Thank you, Your Honor. I’m Bill
Robins, Santa Monica. And by way of background, I
was appointed by Judge Johnson as one of the
members of the executive committee in the JCCP when
these cases were first -- early on when these cases were

App. 59
filed. The reason you don’t have 30 lawyers here is
because we’ve organized ourselves. And I’m here
speaking on behalf of all the plaintiffs that have made
their way here so far.
THE COURT: Oh, great.
MR. ROBINS: And we will suggest to Your
Honor that the orderly way to handle this is through
consolidated, and I’m going to say most likely two
motions.
[p.5]
THE COURT: Okay.
MR. ROBINS: And the reason for that is there is
a distinction between those plaintiffs who originally
moved for the JCCP and then sort of everybody else
who did nothing more than file the lawsuit and got
removed. And there is a distinction, we think, in that,
and there’s also some distinctions concerning waiver
that we think apply to the first group that don’t apply
to the second. And so when we originally filed our
motions way back when and they were -- most of the
cases Your Honor knows are here in front of you, but
there were cases in the Eastern District. There’s some
cases up in the Northern District.
The way that it was teed up in most of the districts
was with three groups because of some distinctions
that no longer exist because of Judge Gergel’s order.
We’re now down, I think, to two groups from the way I
can tell in looking at his order and what’s left for Your
Honor to decide on the question of subject matter
jurisdiction. So our suggestion would be that it is a

App. 60
consolidated briefing, that we will file -- and I think
we’ll be able to get to a point of having an agreement on
every single plaintiff that is coming here.
One comment I would make is that we’ve been
watching closely the orders that have been coming out
of Judge Gergel and getting back to the JPML and
making their way back here to Your Honor. There are
a few cases that, you know, have not
[p.6]
quite landed at LAX, made their way -- I guess here
would be John Wayne, but they haven’t made it here
yet. They’ll be here soon.
Judge Gergel just signed another remand order, I’m
told, this morning on a case of somebody that was still
up there. And there are a few lawyers that are in that
group that were not part of the original JCCP
leadership, were not part of the steering committee
that we formed. I have every expectation that we’ll get
control over those cases as well and those lawyers will
be willing to allow leadership team to, you know, bring
them in under the tent. But I would ask the Court
within your consideration as we’re setting the briefing
schedule to give us a little bit of time to let those cases
come in here.
There may be a few left that for whatever reason
still end up in front of Judge Gergel and don’t get
completely looped in, but just in terms of the efficiency
of things, we think that it would be best if we can get
all of the cats herded in sort of one or two motions as
I’m saying. We’re not looking for a lot of time. I was
going to suggest to Your Honor 45 days from today for

App. 61
us to file opening briefs. The defense and I have
already conferred about this. I think we’re in
agreement on this. They would file a response 30 days
after that; we would file a reply two weeks later. You
know, they asked me about a surreply, and I know
those are generally discouraged in the Central District.
It’s up to Your Honor as to how you want to
[p.7]
handle that, but this is a schedule that we were going
to suggest to you.
THE COURT: Sounds great. I’m delighted that
you’re on top of this and it’s coordinated and organized.
I really want to proceed as efficiently as possible, and
it sounds like you got a head start. So I’m very
comfortable with that.
What I would ask, then, is if you could submit a
proposed briefing and hearing schedule in an order
that I can sign, and then that will be the order of the
Court. One question I need a moment to talk to the
clerk of this courthouse as well as my own clerk is
whether we should set up a new case where these are
filed in as opposed to filing the motions in 130 cases, if
you follow me. That’s more an internal. I want to make
it as simple for you as possible. So I imagine it would
be easier -- it’s a question, not an argument -- if you
just had to file in one case the two motions or do you
see it differently?
MR. ROBINS: Your Honor, we conferred. I
conferred with Mr. Cheffo’s colleague about that exact
issue yesterday, and we completely agree with that.
That would be the most logical way to do it, you know,

App. 62
with, you know, an exhibit that picks up all the case
numbers that apply. That -- you know, that makes the
most sense. And we would certainly ask Your Honor if
we can do that feasibly here, that would be the best
approach. Because otherwise, we’re just -- we have 140
filings and all that and it doesn’t really make any
logical sense to
[p.8]
have to do that, Your Honor. It’s going to be a me too
motion on everything behind it.
And frankly, it may confuse things a little bit
because of the fact that we have -- what I said before,
you know, some distinctions in terms of just which
buckets each one goes in. So if we could sort of handle
it exactly the way you’re suggesting, I think it’s going
to make it a lot easier at the end of the day for
everyone.
THE COURT: Okay. So then I guess the
question that I have for you to follow up, should we
have one case that you file it on or two cases that you
file it on?
MR. ROBINS: I think if we can file it in one case,
that would make the most sense and we cross-reference
the cases by case number that it would apply to. I don’t
see the necessity. Maybe Mr. Cheffo will disagree.
Yeah, I think that’s easiest for us.
THE COURT: Okay. Could you give me a
moment and I’ll talk to Terri and Melissa here.
(A discussion was held off the record.)

App. 63
THE COURT: All right. I think the proposal is going
to work. What I think I’ll have to do is issue a minute
order indicating what the new case number is and
indicating in each individual case all 130, or if that’s
going to be 140 that all filings need to be in this new
case number. So if you see that type of minute order,
now you know why.
[p.9]
So I guess the ball, then, is in your court; right?
You’re going to submit a stipulation and Proposed
Order about the briefing and hearing schedule?
MR. ROBINS: Yes, Your Honor.
THE COURT: And I’ll get an order -- minute
order out with a new case number. And all filings
should be in this new case number.
Okay. Tell me, is there anything else you’d like to
talk about?
MR. ROBINS: Your Honor, Bill Robins, again,
for the plaintiff. Just as a clarification, you know, I
don’t -- I can’t imagine, as I’m sitting here, anything
that would get filed as, you know, the next filing other
than the motion, other than you may get CTOs coming
back from the JPML for these individual cases. And so
I think -- you know, I’d just make one caveat to what
you’re saying about this whole organization of one case
number. You know, in a sense, we need to treat this as
a mini MDL in that you don’t want 140 cases filing -- I
don’t think you do anyway, because later it would be a
problem for things that are unrelated to a common
issue.

App. 64
THE COURT: Right.
MR. ROBINS: And so my suggestion on the
minute order would be that it, you know, addresses
that it is for matters that are -- you know, have
common issues applicable to the entire, you know,
cases or something like that so that as
[p.10]
there may be other case-specific things that
theoretically could come up, you know, I would leave it
to you obviously on how you want to handle pro hac for
this, maybe it makes sense to put that in the general.
But for things coming from the JPML initially or
perhaps -- I don’t know what, but there may be
something that a lawyer in an individual case or for
some reason, you know, Pfizer needs to file an
individual case, I would just leave that possibility open.
THE COURT: You’re right.
MR. ROBINS: Rather than put everything in one
number.
THE COURT: You are right. You are right. And
plus I wouldn’t want to -- we’re trying to streamline
and have this new case number have the important
stuff. And I don’t want to bog it down with pro hac vice
or conditional transfer orders. I don’t want that. So I
agree.
MR. ROBINS: Okay.

App. 65
THE COURT: I’ll work with the wording and
hopefully it’s going to be acceptable. And if anybody has
a problem with it, you can just let me know.
MR. ROBINS: Certainly, Your Honor.
THE COURT: Okay.
MR. CHEFFO: Good morning, Your Honor. Mark
Cheffo for Pfizer. I’m going to be brief. I think you’ll
also hear
[p.11]
what I have to say is that, you know, we’re in kind of
violent agreement, I think, on most of these issues. We
are fortunate to have good lawyers on the plaintiff’s
side at least, and we’ve been coordinating well on what
makes sense.
So I think what you’ve heard is something that we
second in terms of an orderly process that’s kind of
most efficient for the Court and for the parties. And
thank you for that, and thank you for granting my pro
hac.
So with that, I think the only thing -- and I should,
just as a housekeeping matter, maybe say it once and
get it out of the way, we have a personal jurisdiction
affirmative defense that it’s not something -- we think
it will be moot frankly to the extent that we’re here
before Your Honor in this Court, as we think we should
be under CAFA. But to the extent we’re not in State
Court, I don’t want there to be any confusion that we
have waived that issue. But that’s not something I
think this Court is going to need to take up.

App. 66
THE COURT: And I saw that in the briefing,
and I don’t mean to suggest that you’ve waived any of
your other defenses or arguments or issues that might
be there, but all I’m saying is I don’t want to do
anything about the case until I’ve decided this CAFA is
a jurisdictional issue.
MR. CHEFFO: And we couldn’t agree more. The
jurisdictional issue goes away to the extent that Your
Honor determines that there’s CAFA jurisdiction.
[p.12]
So with that, I think that we are prepared to -- you
know, I think the one or the two briefs makes some
sense. We’ve talked about that. We will do that within
30 days. I think we had just talked about, you know, a
surreply frankly. That’s something we’ll wait and see
whether you think we need it, you need it, but we’ll
take that as it comes, Your Honor.
THE COURT: I appreciate it. I’m not trying to
curry anybody’s favor, but I appreciate the civility and
professionalism. I haven’t had that in a while. It’s been
very contentious lately for whatever reason, and it’s not
productive. So I appreciate everybody trying to be
coordinated and efficient, and I think we have a game
plan on how to proceed. And it sounds like I’ll be
resolving this jurisdictional issue, it sounds like, in the
next 90 days if you’re going to be filing in 45 days and
with that briefing schedule you talked about.
MR. CHEFFO: Thank you, Your Honor.
THE COURT: Okay. Thank you.

App. 67
THE COURTROOM DEPUTY: All rise.
(Proceedings concluded at 9:32 a.m.)
--oOo-[p.13]
CERTIFICATE OF OFFICIAL REPORTER
COUNTY OF LOS ANGELES
STATE OF CALIFORNIA

)
)
)

I, DEBBIE HINO-SPAAN, FEDERAL
OFFICIAL REALTIME COURT REPORTER, in and
for the United States District Court for the Central
District of California, do hereby certify that pursuant
to Section 753, Title 28, United States Code that the
foregoing is a true and correct transcript of the
stenographically reported proceedings held in the
above-entitled matter and that the transcript page
format is in conformance with the regulations of the
Judicial Conference of the United States.
Date: February 16, 2017
/S/ DEBBIE HINO-SPAAN_
Debbie Hino-Spaan, CSR No. 7953
Federal Official Court Reporter

App. 68

APPENDIX F
IN THE
COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT,
DIVISION ___
Court of Appeals No. B ______
[Filed April 12, 2019]
________________________________
PFIZER INC. AND
)
GREENSTONE LLC,
)
Petitioners,
)
)
v.
)
)
THE SUPERIOR COURT OF
)
CALIFORNIA, COUNTY OF
)
LOS ANGELES,
)
Respondent,
)
)
PLAINTIFFS IN LIPITOR CASES )
Real Parties in Interest.1
)
________________________________ )
Superior Court, Los Angeles County,
No. JCCP 4761, Hon. Carolyn Kuhl, Judge

1

The Real Parties in Interest are listed in the Appendixes attached
as Exhibits DD and EE.

App. 69
_________________________________________
PETITION FOR WRIT OF MANDATE;
MEMORANDUM OF POINTS AND
AUTHORITIES
_________________________________________
DECHERT LLP
*William W. Oxley (SBN 136793)
william.oxley@dechert.com
Anna Q. Do (SBN 281327)
anna.do@dechert.com
Nathan McClellan (SBN 291435)
nathan.mcclellan@dechert.com
US Bank Tower
633 West 5th Street, Suite 4900
Los Angeles, CA 90071-2032
Telephone: +1 213 808 5700
Facsimile: +1 213 808 5760
Attorneys for Petitioners Pfizer Inc.
and Greenstone LLC

App. 70
APP-008
TO BE FILED IN THE COURT OF APPEAL
COURT OF APPEAL
DISTRICT, DIVISION

Second

APPELLATE

COURT OF APPEAL CASE NUMBER:
SUPERIOR COURT CASE NUMBER: JCCP 4761
STATE BAR NUMBER: 281327
ATTORNEY OR PARTY WITHOUT ATTORNEY:
NAME: Anna Do
FIRM NAME Dechert LLP
STREET ADDRESS 633 West 5th Street, Suite 4900
CITY: Los Angeles STATE: CA ZIP CODE 90071-2032
TELEPHONE NO.: 2138085700 FAX NO. 2138085760
E-MAIL ADDRESS: anna.do@dechert.com
ATTORNEY FOR (name): Pfizer Inc.
APPELLANT/
PETITIONER: Pfizer Inc. and Greenstone LLC
RESPONDENT/
REAL PARTY IN INTEREST: Superior Court of
California, Los Angeles County/ Plaintiffs in Lipitor
cases, see Exhibits DD-EE to Petition

App. 71
CERTIFICATE OF INTERESTED ENTITIES
OR PERSONS
(Check one): G
x INITIAL CERTIFICATE
G SUPPLEMENTAL CERTIFICATE
Notice: Please read rules 8.208 and 8.488 before
completing this form. You may use this form for
the initial certificate in an appeal when you file
your brief or a prebriefing motion, application,
or opposition to such a motion or application in
the Court of Appeal, and when you file a petition
for an extraordinary writ. You may also use this
form as a supplemental certificate when you
learn of changed or additional information that
must be disclosed.
1. This form is being submitted on behalf of the
following party (name): Greenstone LLC
2. a. G
x There are no interested entities or persons
that must be listed in this certificate under rule 8.208.
b. G Interested entities or persons required to be
listed under rule 8.208 are as follows:
Full name of interested
entity or person
(1) Pfizer
(2)
(3)
(4)
(5)

Nature of interest
(Explain):
Corporate Parent

App. 72
G Continued on attachment 2.
The undersigned certifies that the above-listed
persons or entities (corporations, partnerships,
firms, or any other association, but not including
government entities or their agencies) have
either (1) an ownership interest of 10 percent or
more in the party if it is an entity; or (2) a
financial or other interest in the outcome of the
proceeding that the justices should consider in
determining whether to disqualify themselves, as
defined in rule 8.208(e)(2).
Date: April 12, 2019
Anna Do
(TYPE OR PRINT NAME)
/s/
(SIGNATURE OF APPELLANT OR ATTORNEY)
Page 1 of 1
_________________________________________________
CERTIFICATE OF INTERESTED ENTITIES
OR PERSONS
Form Approved for Optional Use
Judicial Council of California
APP-008 [Rev. January 1, 2017]
Cal. Rules of Court, rules 8.208, 8.488
www.courts.ca.gov
For your protection and privacy, please press the
Clear This Form button after you have printed
the form.
Print this form

Save this form

Clear this form

App. 73
APP-008
TO BE FILED IN THE COURT OF APPEAL
COURT OF APPEAL
DISTRICT, DIVISION

Second

APPELLATE

COURT OF APPEAL CASE NUMBER:
SUPERIOR COURT CASE NUMBER: JCCP 4761
STATE BAR NUMBER: 281327
ATTORNEY OR PARTY WITHOUT ATTORNEY:
NAME: Anna Do
FIRM NAME Dechert LLP
STREET ADDRESS 633 West 5th Street, Suite 4900
CITY: Los Angeles STATE: CA ZIP CODE 90071-2032
TELEPHONE NO.: 2138085700 FAX NO. 2138085760
E-MAIL ADDRESS: anna.do@dechert.com
ATTORNEY FOR (name): Pfizer Inc.
APPELLANT/
PETITIONER: Pfizer Inc. and Greenstone LLC
RESPONDENT/
REAL PARTY IN INTEREST: Superior Court of
California, Los Angeles County/ Plaintiffs in Lipitor
cases, see Exhibits DD-EE to Petition

App. 74
CERTIFICATE OF INTERESTED ENTITIES
OR PERSONS
(Check one): G
x INITIAL CERTIFICATE
G SUPPLEMENTAL CERTIFICATE
Notice: Please read rules 8.208 and 8.488 before
completing this form. You may use this form for
the initial certificate in an appeal when you file
your brief or a prebriefing motion, application,
or opposition to such a motion or application in
the Court of Appeal, and when you file a petition
for an extraordinary writ. You may also use this
form as a supplemental certificate when you
learn of changed or additional information that
must be disclosed.
1. This form is being submitted on behalf of the
following party (name): Pfizer Inc.
2. a. G
x There are no interested entities or persons
that must be listed in this certificate under rule 8.208.
b. G Interested entities or persons required to be
listed under rule 8.208 are as follows:
Full name of interested
entity or person
(1)
(2)
(3)
(4)
(5)

Nature of interest
(Explain):

App. 75
G Continued on attachment 2.
The undersigned certifies that the above-listed
persons or entities (corporations, partnerships,
firms, or any other association, but not including
government entities or their agencies) have
either (1) an ownership interest of 10 percent or
more in the party if it is an entity; or (2) a
financial or other interest in the outcome of the
proceeding that the justices should consider in
determining whether to disqualify themselves, as
defined in rule 8.208(e)(2).
Date: April 12, 2019
Anna Do
(TYPE OR PRINT NAME)
/s/
(SIGNATURE OF APPELLANT OR ATTORNEY)
Page 1 of 1
_________________________________________________
CERTIFICATE OF INTERESTED ENTITIES
OR PERSONS
Form Approved for Optional Use
Judicial Council of California
APP-008 [Rev. January 1, 2017]
Cal. Rules of Court, rules 8.208, 8.488
www.courts.ca.gov
For your protection and privacy, please press the
Clear This Form button after you have printed
the form.
Print this form

Save this form

Clear this form

App. 76
TABLE OF CONTENTS
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . 4
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

PFIZER DID NOT FORFEIT PERSONAL
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . 10

II.

FORUM NON CONVENIENS DISMISSAL
WAS PROPER . . . . . . . . . . . . . . . . . . . . . . . . 12

PETITION FOR WRIT OF MANDATE . . . . . . . . . 13
I.

WHY RELIEF BY WRIT IS PROPER . . . . . 13

II.

TIMELINESS OF PETITION. . . . . . . . . . . . 13

III.

AUTHENTICITY OF EXHIBITS . . . . . . . . . 13

IV.

FACTUAL BACKGROUND . . . . . . . . . . . . . 14
A. Background on Lipitor MDL and Pfizer’s
Removals . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
B. Upon Removal, Pfizer Preserved Personal
Jurisdiction and Forum Non Conveniens In
Its Federal Answers . . . . . . . . . . . . . . . . . . . 15
C. Pfizer Agreed to Stay Fact Discovery in
the MDL While the Parties Litigated Subject
Matter Jurisdiction . . . . . . . . . . . . . . . . . . . . 16
D. Through a Series of Orders, Federal
District Courts Found No Subject Matter
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . 17
E. Following Resolution of Subject Matter
Jurisdiction, Pfizer Promptly Asserted Its

App. 77
Intent to Move on Personal Jurisdiction and
Forum Non Conveniens Defenses . . . . . . . . . 19
F. Pfizer Preserved Its Defenses in Its
Second Removal and Filed Dispositive
Motions After Second Remand . . . . . . . . . . . 20
G. The Superior Court Rejected Pfizer’s
Defenses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
V.

BASES FOR RELIEF . . . . . . . . . . . . . . . . . . 22
A. Pfizer Did Not Forfeit Personal
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . 22
B. Forum Non Conveniens Dismissal Was
Proper. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

PRAYER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
VERIFICATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
MEMORANDUM
OF
POINTS
AND
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . 25
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 25
STANDARD OF REVIEW . . . . . . . . . . . . . . . . . . . . 25
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
I.

LITIGATING
SUBJECT
MATTER
JURISDICTION BEFORE PERSONAL
JURISDICTION DOES NOT FORFEIT
PERSONAL JURISDICTION . . . . . . . . . . . . 26
A. Pfizer’s Personal Jurisdiction Defense Is
Undisputedly Meritorious Under BristolMyers Squibb . . . . . . . . . . . . . . . . . . . . . . . . . 27

App. 78
B. Personal and Subject Matter Jurisdiction
Are Distinct, Co-Equal, and Non-Exclusive
Bases of Jurisdiction . . . . . . . . . . . . . . . . . . . 29
C. Pfizer Was Not Required to Move on
Personal Jurisdiction While Subject Matter
Jurisdiction Was Being Litigated . . . . . . . . . 30
D. A Conditional Waiver Is Ineffective If the
Condition Is Unmet . . . . . . . . . . . . . . . . . . . . 34
II.

THE SUPERIOR COURT SHOULD HAVE
DISMISSED ON FORUM NON
CONVENIENS GROUNDS . . . . . . . . . . . . . 38
A. Plaintiffs’ Home States Are Suitable
Alternative Fora . . . . . . . . . . . . . . . . . . . . . . 39
B. The Private and Public Interest Factors
Favor Dismissal. . . . . . . . . . . . . . . . . . . . . . . 41

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
CERTIFICATE OF COMPLIANCE . . . . . . . . . . . . 46
***
[Table of Authorities Omitted in the
Printing of this Appendix]

App. 79
Petitioners Pfizer Inc. and Greenstone LLC
(hereinafter “Pfizer”) respectfully petition this Court
for a Writ of Mandate ordering the Los Angeles
Superior Court to vacate its Order and Opinion of
March 15, 2019 (attached as Exhibit A), and directing
it to enter an order granting Pfizer’s Motion to Quash
Service of Summons with regard to the claims of nonCalifornia Plaintiffs for lack of personal jurisdiction or
Dismiss the claims of non-California Plaintiffs on
grounds of forum non conveniens.
INTRODUCTION
This Petition concerns the claims of some 3,721 nonresident Plaintiffs in a coordinated proceeding in the
Superior Court involving the prescription medication
Lipitor, manufactured by Pfizer. There is no dispute
that the Due Process Clause precludes personal
jurisdiction over the claims of those non-resident
Plaintiffs under the controlling decision of the Supreme
Court of the United States in Bristol-Myers Squibb Co.
v. Superior Court, 137 S. Ct. 1773 (2017). Likewise, the
Parties do not dispute that, for similar and related
reasons, the claims of these non-resident Plaintiffs
were subject to dismissal in favor of litigation in their
home states under the doctrine of forum non
conveniens. Nonetheless, the Superior Court ruled that
Pfizer had forfeited its constitutional personal
jurisdiction defenses by failing to assert them at the
same time that Pfizer was litigating the issue of subject
matter jurisdiction in the Lipitor multidistrict
litigation (MDL) in federal court. Moreover, although
the issue was not disputed by the Parties, the Superior
Court determined that forum non conveniens dismissal

App. 80
was improper. Both of these rulings were error and a
writ should issue.
I. PFIZER DID NOT FORFEIT PERSONAL
JURISDICTION
The Superior Court erred in ruling that litigation
federal subject matter jurisdiction could effect a
forfeiture of a personal jurisdiction defense. There is no
dispute that Pfizer preserved its personal jurisdiction
defenses by asserting them in its answers in federal
court immediately upon removal. Yet, the Superior
Court ruled that because Pfizer “had more than enough
time to litigate [its] defense of personal jurisdiction”
while it was litigating subject matter jurisdiction in the
Lipitor MDL, it thereby forfeited its right to assert
personal jurisdiction at all. This ruling erred as a
matter of law. Forfeiture occurs when a party litigates
on the merits, not, as here, when it litigates only
subject matter jurisdiction. No case cited by Plaintiffs
or the Superior Court supports the Court’s ruling.
The Superior Court’s forfeiture ruling (decided
under federal law) is also contrary to controlling
decisions of the United States Supreme Court. It is well
settled that, because subject matter jurisdiction and
personal jurisdiction are distinct jurisdictional
doctrines, it is proper to sequence their litigation in the
interest of judicial efficiency. Ruhrgas AG v. Marathon
Oil Co., 526 U.S. 574, 583 (1999). Here, Pfizer followed
the ordinary procedure under Ruhrgas by litigating
subject matter jurisdiction before personal jurisdiction.
This was not only proper, but also necessary: because
Pfizer’s personal jurisdiction defenses would not
dispose of the entire action, the MDL court would not

App. 81
be able to rule on personal jurisdiction unless it first
determined that it had subject matter jurisdiction.
Thus, the fact that Pfizer deferred its personal
jurisdiction motion until after subject matter
jurisdiction cannot have reasonably suggested
acquiescence to the court’s jurisdiction, nor can Pfizer
be penalized with forfeiture for having done so.
Finally, there is no merit to the Superior Court’s
alternate basis for forfeiture—that Pfizer showed
intent to litigate the merits by referring to these cases
in a single footnote of its Reply brief in support of its
Omnibus Summary Judgment Motion in the MDL.
That footnote specifically stated that any forthcoming
summary judgment motion as to the non-resident
Plaintiffs was contingent on the MDL court finding
subject matter jurisdiction proper, which it did not.
II.

FORUM NON CONVENIENS DISMISSAL
WAS PROPER

The Superior Court also erred in ignoring the
undisputed conclusion of the Parties that the nonresident Plaintiffs’ claims should be dismissed for
forum non conveniens in favor of litigating those claims
in Plaintiffs’ home states. Although the Superior Court
found that Pfizer had not forfeited this defense, it
nevertheless concluded, contrary to the Parties’
agreement, that dismissal for forum non conveniens
was improper. Pfizer and its codefendants have
stipulated that they will toll the statutes of limitations
in Plaintiffs’ home states to accord with the date that
Plaintiffs filed their actions here. Moreover, the
Superior Court offered little explanation of how it
weighed the public and private interests associated

App. 82
with litigating in another forum, and the explanation
it gave is contrary to well-established precedent. The
Parties, witnesses, evidence, and situs all are located
outside California. California thus has no connection to
these actions, and litigating them here will impose
substantial burdens on the Parties, witnesses, and
Court.
Because the Superior Court erred in denying
Pfizer’s Motions to Quash and Dismiss, the Court
should issue a Writ of Mandate directing the Superior
Court to vacate its Opinion and Order and to grant
Pfizer’s Motions.
PETITION FOR WRIT OF MANDATE
By this verified Petition, Petitioners allege:
I.

WHY RELIEF BY WRIT IS PROPER

Relief by Writ of Mandate is proper pursuant to
California Code of Civil Procedure § 418.10.
II.

TIMELINESS OF PETITION

This Petition is timely filed pursuant to an Order of
the Superior Court under California Code of Civil
Procedure § 418.10(c), extending by twenty days
Pfizer’s time to file this Petition.2

2

Pfizer has not yet received the Superior Court’s Order extending
the time to file, but was informed by the Court’s judicial assistant
that the Court signed a copy of the Order on March 22, 2019.
Pfizer will file a copy of the Order with this Court promptly upon
receipt.

App. 83
III.

AUTHENTICITY OF EXHIBITS

The exhibits accompanying this Petition are true
copies of documents on file with Respondent Superior
Court or a transcript of the hearing on Pfizer’s Motion
in the Superior Court, except Exhibits F, K, Q, and BB,
each of which is a true copy of a public record that this
Court should consider in the first instance.3 The
exhibits are incorporated herein by reference as though
fully set forth in this Petition.
IV.

FACTUAL BACKGROUND

A. Background on Lipitor MDL and Pfizer’s
Removals
1. These cases are part of a nationwide litigation in
which Plaintiffs allege they developed type 2 diabetes
as a result of their use of Lipitor, a prescription
medication manufactured by Pfizer.
2. In 2014, an MDL proceeding was established in
the United States District Court for the District of
South Carolina for federal Lipitor actions. The MDL
judge (Hon. Richard M. Gergel) ultimately granted
summary judgment as to all claims in the MDL
because Plaintiffs lacked admissible expert testimony
on causation, and that ruling was affirmed on appeal.
In re Lipitor (Atorvastatin Calcium) Marketing, Sales

3

The Court may consider new materials on a Petition for Writ of
Mandate. See McCarthy v. Superior Ct., 191 Cal. App. 3d 1023,
1030 n.3 (1987). To the extent that the Court declines to consider
Exhibits F, K, Q, and BB, however, Pfizer requests that the Court
nonetheless consider the remainder of its Petition because those
exhibits are not essential to Pfizer’s right to relief.

App. 84
Practices and Prods. Liab. Litig., 892 F.3d 624 (4th Cir.
2018).
3. Parallel to the Lipitor MDL, similar Lipitor
actions were filed in various other state-court fora,
including these actions filed in California in 2013 and
2014 against Pfizer and a California distributor,
McKesson Corp.
4. To take advantage of the efficiencies provided by
the MDL, Pfizer removed all the state-court actions to
the extent it believed it had available grounds to do so.
5. Here, Pfizer removed the California actions on
the grounds that: (1) Plaintiffs’ efforts to join a
California coordinated proceeding established
jurisdiction under the Class Action Fairness Act
(CAFA); and (2) but for Plaintiffs’ fraudulent joinder of
McKesson, there was complete diversity of citizenship.
6. In some multi-plaintiff Lipitor actions, such as
those filed in Missouri, Pfizer filed with its notice of
removal a motion to dismiss the claims of the nonresident plaintiffs for lack of personal jurisdiction. (See,
e.g., Notice of Removal ¶¶ 4–11, Lofton v. Pfizer Inc.,
No. 16-cv-604 (E.D. Mo. Apr. 29, 2016) (No. 1), attached
as Exhibit F.)
7. In those cases, Pfizer requested that the issue of
personal jurisdiction be decided first because the
dismissal of non-resident Plaintiffs for lack of personal
jurisdiction would leave the remaining Parties
completely diverse, and thereby perfect the federal
courts’ subject matter jurisdiction. (See id.)

App. 85
8. Pfizer did not file personal jurisdiction motions
in the California cases, however, because, unlike in the
Missouri cases, the presence of California Defendant
McKesson meant that the remaining Parties would not
be completely diverse even after dismissal of nonresident Plaintiffs.
B. Upon Removal, Pfizer Preserved Personal
Jurisdiction and Forum Non Conveniens In Its
Federal Answers
9. Although Pfizer did not move on personal
jurisdiction in connection with its removals here, it
took the required steps to preserve the defense under
federal law by asserting it in its answer. See FED. R.
CIV. P. 12(h).
10.
Pfizer filed answers in federal court
simultaneous with or shortly after its removals,
explicitly raising both personal jurisdiction and forum
non conveniens:
THIRTY-FOURTH DEFENSE
To the extent that this venue and/or forum is, or
later becomes, inconvenient or otherwise
improper, Pfizer reserves the right to challenge
its propriety pursuant to California Code of Civil
Procedure sections 410.30 and 418.10(a)(2),
California Civil Code sections 392-402, 28 U.S.C.
sections 1404 or 1406, forum non conveniens, or
any other applicable statute or common-law
doctrine relating to venue and/or forum in
California or any other applicable state or
federal jurisdiction.

App. 86
THIRTY-FIFTH DEFENSE
All claims in the Complaint against Pfizer must
be dismissed due to lack of personal jurisdiction
under the Due Process clause, as well as
California law and any other potentially
applicable state law.
(Def.’s Answer at 44–45, Banks v. Pfizer, Inc., No. 141908 (C.D. Cal. Mar. 17, 2014) (No. 22), attached as
Exhibit G.)
11.
Both Plaintiffs and the Superior Court agree
that this was sufficient to preserve Pfizer’s personal
jurisdiction challenge under federal law. (Ex. A at 5);
see also FED. R. CIV. P. 12(h).
C. Pfizer Agreed to Stay Fact Discovery in the
MDL While the Parties Litigated Subject
Matter Jurisdiction
12.
Following removal, Pfizer moved to stay
proceedings in federal court so that any determination
of federal subject matter jurisdiction could be decided
on a coordinated basis following transfer to the MDL.
(See, e.g., Mot. Stay, Little v. Pfizer Inc., 3:14-1177
(N.D. Cal. Mar. 20, 2014) (No. 18), attached as Exhibit
H.)
13.
Once in the MDL, Plaintiffs filed consolidated
briefing in support of their motions to remand and in
turn sought to stay fact discovery while their motions
to remand were pending. (See Mot. Stay, In re Lipitor,
MDL No. 14-2502 (D.S.C. June 19, 2014) (No. 257),
attached as Exhibit I.)

App. 87
14.
Pfizer agreed to the proposed stay, but asked
that Plaintiffs be ordered: (1) to participate in the
ongoing depositions of witnesses common to all MDL
actions, to avoid “multiple depositions of those
witnesses and possibly alter[ing] the [Court’s]
schedule”; and (2) to provide “very limited and
narrowly tailored jurisdictional discovery concerning
the fraudulent joinder of McKesson, which Defendants
have asserted as a basis for federal jurisdiction.” (Defs.’
Resp. to Pls.’ Mot. Stay at 1, In re: Lipitor, MDL No.
14-2502 (D.S.C. June 25, 2014) (No. 283), attached as
Exhibit J.)4
15.
The MDL court stayed all general discovery
except the common depositions (CMO 10 at 1, In re
Lipitor, MDL 2502 (D.S.C. June 27, 2014), attached as
Exhibit L), and denied Pfizer’s request for
jurisdictional discovery without prejudice. (CMO 11 at
4, In re Lipitor, MDL 2502 (D.S.C. July 8, 2014),
attached as Exhibit M.)
D. Through a Series of Orders, Federal District
Courts Found No Subject Matter Jurisdiction
16.
In January 2015, the magistrate judge
recommended that the MDL court reject Pfizer’s
diversity jurisdiction arguments and send the

4

Pfizer’s request for participation in common depositions was a
case-management measure to avoid duplication of common
discovery, consistent with the MDL court’s order on state-court
coordination, and the Superior Court did not hold otherwise. (CMO
4 at 15–16, In re Lipitor, MDL 2502 (D.S.C. Apr. 25, 2014),
attached as Exhibit K.)

App. 88
California actions back to the transferor district courts
in California to decide the propriety of CAFA removal.
17.
While Pfizer’s objections to that report and
recommendation were pending, it also moved for
summary judgment in all other cases in the MDL based
on the lack of admissible general causation and specific
causation expert testimony. (See Defs.’ Mot. Summ. J.,
In re Lipitor, MDL No. 14-2502 (D.S.C. June 24, 2016)
(No. 1564), attached as Exhibit N.)
18.
In a footnote to the Reply in support of that
omnibus motion, Pfizer stated that the Court could
grant summary judgment in these cases for the same
reasons if and when it determined it had subject
matter jurisdiction over them. (See Defs.’ Reply at 19
n.9, In re: Lipitor, MDL No. 14-2502 (D.S.C. Aug. 12,
2016) (No. 1608), attached as Exhibit O.)
19.
In October 2016, the MDL court conducted a
hearing on subject matter jurisdiction issues including,
inter alia, a motion to remand filed by plaintiffs in a
related Lipitor case from Missouri.
20.
In the Missouri cases, unlike here, resolving
personal jurisdiction objections first would create
complete diversity between the remaining parties and
dispense with the need to consider subject matter
jurisdiction at all. (Oct. 21, 2016 Hrg. Tr. at 51–52,
attached as Exhibit P; see also Part A, supra.)
21.
Judge Gergel, however, nevertheless rejected
Pfizer’s invitation to exercise his discretion under
Ruhrgas to resolve personal jurisdiction before subject
matter jurisdiction. (Id. at 51–52.)

App. 89
22.
Thereafter, the MDL judge adopted the
magistrate judge’s report and recommendation in these
cases and suggested that the MDL panel remand these
cases back to the California federal courts to decide the
existence of subject matter jurisdiction under CAFA.
(CMO 87 at 12–15, In re Lipitor, MDL 2502 (D.S.C.
Nov. 7, 2016), attached as Exhibit Q.)
23.
Upon remand to the California federal courts,
Pfizer again noted the personal jurisdiction and forum
non conveniens challenges asserted and preserved in its
answers. (See, e.g., Def.’s Status Report at 2, Johnson
v. Pfizer, Inc., 14-1836 (C.D. Cal. Dec. 30, 2016) (No.
32), attached as Exhibit R.)5
24.
At a subsequent status conference, Judge
Carney acknowledged that Pfizer had not “waived . . .
any defense or arguments or issues,” but explained that
he wanted first to decide whether there was subject
matter jurisdiction under CAFA before addressing
Pfizer’s personal jurisdiction and forum non conveniens
challenges. (Hr’g Tr. at 11:18–22, In re Pfizer, No. 170005 (C.D. Cal. Feb. 1, 2017), attached as Exhibit S.)
25.
On May 23, 2017, Judge Carney ruled that he
lacked subject matter jurisdiction under CAFA and
remanded the California actions to state court. (See
Order, In re Pfizer, No. 17-0005 (C.D. Cal. May 23,
2017) (No. 20), attached as Exhibit T.)

5

Pfizer’s forum non conveniens challenges were invoked under the
federal analog to forum non conveniens, which, as set forth in
Pfizer’s answers quoted above, is 28 U.S.C. § 1404(a).

App. 90
E. Following Resolution of Subject Matter
Jurisdiction, Pfizer Promptly Asserted Its
Intent to Move on Personal Jurisdiction and
Forum Non Conveniens Defenses
26.
As soon as the issue of subject matter
jurisdiction was adjudicated, upon remand to the state
court, Pfizer promptly raised its personal jurisdiction
and forum non conveniens defenses in the JCCP.
27.
Neither Plaintiffs nor the Superior Court
have contended at any time that Pfizer’s actions
following remand to state court effected a waiver or
forfeiture of its personal jurisdiction and forum non
conveniens defenses:
a) In the first filing following remand, the
parties expressly stated that “no party waives or
compromises any of its rights, arguments,
defenses or positions concerning the issues
subject to any putative appeal of Judge Carney’s
Remand Order.” (Joint Status Report at 2 (May
30, 2017), attached as Exhibit U.)
b) In Plaintiffs’ first motion following
remand, they acknowledged that Pfizer had
“reserved a personal jurisdiction defense that it
planned to raise at the state court level.” (Pls.’
Proposed Am. Order re Add-On Procedures at 5
(June 27, 2017), attached as Exhibit V.)
Plaintiffs further recognized that “Pfizer
rightfully wants to have the personal
jurisdiction issue resolved once, by this JCCP
court” and “agree[d] that this is precisely the
sort of global pretrial issue that ought to be

App. 91
resolved by this JCCP court[.]” (Id. at 5.) Pfizer’s
response again expressly stated that Pfizer did
“not waive its defense of lack of personal
jurisdiction with respect to any non-California
Plaintiffs.” (Defs.’ Opp’n to Pls.’ Proposed Am.
Order Re Add-On Procedures at 2 (July 7, 2017),
attached as Exhibit W.) The parties agreed to a
briefing schedule for those objections. (Joint
Status Report at 2 (July 31, 2017), attached as
Exhibit X.)
c) Following this Court’s approval of a
stipulated protective order regarding discovery,
Pfizer promptly objected to jurisdictional
discovery and once again reserved its personal
jurisdiction challenge. (Joint Status Report at 5
(Oct. 12, 2017), attached as Exhibit Y.) Pfizer
further “reserve[d] its rights to brief this issue
when it becomes ripe” and explained that it had
not yet filed any jurisdictional briefing because
it was “waiting for Plaintiffs to pick a path
forward regarding coordination.” (Id.)
d) In opposing Plaintiffs’ application to
transfer these cases as related cases, Pfizer
reiterated that it “intend[ed] to challenge
personal jurisdiction with respect to the claims
of any non-California Plaintiffs.” (Defs.’ Opp’n to
Pls.’ Mot. to Act on Pend. Notices of Related
Case at 2 n.1 (Nov. 10, 2017), attached as
Exhibit Z.) Pfizer emphasized that, in “an
abundance of caution prior to filing the instant
opposition, Pfizer conferred with Plaintiffs’
leadership in this proceeding and reached

App. 92
agreement that this response will not in any way
be construed as a waiver of its personal
jurisdiction objections.” (Id.)
F. Pfizer Preserved Its Defenses in Its Second
Removal and Filed Dispositive Motions After
Second Remand
28.
The same is true of Pfizer’s second removal of
these actions based on the Superior Court’s sua sponte
coordination of these cases. In its briefing on subject
matter jurisdiction, Pfizer again raised its personal
jurisdiction defense, arguing that post-removal
disposition of these cases could be accomplished
through “discretionary transfer under section 1404 . . .
and/or dismissal for lack of personal jurisdiction.”
(Defs.’ Mem. Opp’n Pls.’ Mot. Remand at 3, In re
Lipitor, No. 18-1725 (C.D. Cal. Apr. 30, 2018) (No. 58),
attached as Exhibit AA.)
29.
After Judge Carney again remanded to the
Superior Court,6 the Parties agreed to a briefing
schedule for Pfizer’s personal jurisdiction challenge.
(Joint Status Report at 2 (July 17, 2018), attached as
Exhibit CC.)
30.
On August 7, 2018, Pfizer moved to quash
service of summons as to the non-California Plaintiffs’
claims and alternatively sought dismissal of those
6

The Ninth Circuit Court of Appeals denied Pfizer’s leave to
appeal and a Petition for Rehearing En Banc. (See Adamyan v.
Pfizer Inc., No. 18-80059 (9th Cir. Jan. 22, 2019), attached as
Exhibit BB.) The Supreme Court of the United States has
granted Pfizer an extension up to June 21, 2019, to file a petition
for certiorari from that order (No. 18A980).

App. 93
claims on forum non conveniens grounds, pursuant to
California Code of Civil Procedure § 418.10(a).
31.
Plaintiffs conceded that the California courts
lack personal jurisdiction over Pfizer pursuant to
Bristol-Myers Squibb Co. v. Superior Court, 137 S. Ct.
1773 (2017), and that the claims of non-California
Plaintiffs’ claims should be dismissed for forum non
conveniens, but argued that Pfizer’s personal
jurisdiction and forum non conveniens challenges had
been forfeited by Pfizer’s conduct in federal court.
G. The Superior Court Rejected Pfizer’s Defenses
32.
The Superior Court denied Pfizer’s Motions.
First, the Court held that Pfizer had forfeited its
personal jurisdiction challenge based solely on: (1) the
passage of time between Pfizer’s Answers and Motion
to Quash; and (2) the footnote at the end of the MDL
Defendants’ Reply brief in support of their Omnibus
Motion for Summary Judgment.
33.
Next, the Court held that although Pfizer had
not forfeited its forum non conveniens challenge, it
would not dismiss because: (1) there were no suitable
alternative forums because the Court believed that the
Parties stipulation to toll the limitations periods in
Plaintiffs’ home states was somehow deficient; and
(2) in any event, California is not an inconvenient
forum, despite Plaintiffs conceding that it is
inconvenient.
34.
Pursuant to a twenty-day extension granted
by the Superior Court under California Code of Civil
Procedure § 418.10(c), this timely Petition followed.

App. 94
V. BASES FOR RELIEF
A. Pfizer Did Not Forfeit Personal Jurisdiction
As explained above, the Superior Court erred in
ruling that litigation in favor of federal subject matter
jurisdiction could effect a forfeiture of personal
jurisdiction. Forfeiture occurs when a party litigates on
the merits, not, as here, when it litigates only subject
matter jurisdiction.
Moreover, the Superior Court’s forfeiture ruling
(decided under federal law) is also contrary to
controlling decisions of the United States Supreme
Court, including Ruhrgas AG v. Marathon Oil Co., 526
U.S. 574, 583 (1999). And the fact that Pfizer deferred
its personal jurisdiction motion until after subject
matter jurisdiction cannot have reasonably suggested
acquiescence to the court’s jurisdiction; nor can Pfizer
be penalized with forfeiture for having done so.
Finally, Pfizer did not show any intent to litigate
the merits by stating—in a single footnote of its Reply
brief in support of its Omnibus Summary Judgment
Motion in the MDL—that any forthcoming summary
judgment motion as to the non-resident Plaintiffs was
contingent on the MDL court finding subject matter
jurisdiction proper, which it did not.
B. Forum Non Conveniens Dismissal Was Proper
The Superior Court also erred in ignoring the
undisputed conclusion of the Parties that non-resident
Plaintiffs should be dismissed under forum non
conveniens in favor of litigating their claims in their
home states. Pfizer and its codefendants have

App. 95
stipulated that they will toll the statutes of limitations
in Plaintiffs’ home states to accord with the date that
Plaintiffs filed their actions here. Moreover, the
Parties, witnesses, evidence, and situs all are located
outside California. California thus has no connection to
these actions, and litigating them here will impose
substantial burdens on the Parties, witnesses, and
Court.
PRAYER
Petitioners pray that this Court:
1. Issue a Writ of Mandate directing Respondent
Superior Court to vacate its Order of March 15, 2019,
and directing it to enter an order granting Pfizer’s
Motion to Quash Service of Summons with regard to
the claims of non-California Plaintiffs for lack of
personal jurisdiction or Dismiss the claims of nonCalifornia Plaintiffs on grounds of forum non
conveniens; and
2. Grant such other relief as may be just and
proper.

App. 96
VERIFICATION
I am the attorney for Pfizer in this case. I have read
the forgoing Petition and know its contents. The facts
alleged in the Petition are within my own knowledge
and I know these facts to be true.
I declare under penalty of perjury that the foregoing
is true and correct and that this verification was
executed on this 12th day of April, 2019, at Los
Angeles, California.

By: /s/ Anna Do
Anna Do
DECHERT LLP
US Bank Tower
633 West 5th Street, Suite 4900
Los Angeles, CA 90071-2032
Telephone: +1 213 808 5700
Facsimile: +1 213 808 5760
Attorney for Petitioners Pfizer Inc.
and Greenstone LLC

App. 97
MEMORANDUM OF POINTS AND AUTHORITIES
STATEMENT OF THE CASE
1. Does a defendant forfeit a properly preserved
personal jurisdiction defense by deferring a dispositive
motion on that defense until after a ruling on its
assertion of federal subject matter jurisdiction?
Defendant-Petitioner’s Answer: No.
Plaintiff-Respondents Answer: Yes.
The Superior Court’s Answer: Yes.
2. Should a California court dismiss, on forum non
conveniens grounds, pharmaceutical product liability
claims of non-resident plaintiffs against a non-resident
defendant where the plaintiffs were not prescribed the
medication in California and did not take the
medication in California, most of the evidence is
located outside California, and the defendant has
stipulated that it will toll the limitations period in
other jurisdictions?
Defendant-Petitioner’s Answer: Yes.
Plaintiff-Respondents Answer: Yes.
The Superior Court’s Answer: No.
STANDARD OF REVIEW
The Superior Court’s forfeiture determination is
reviewed for abuse of discretion. Hamilton v. Atlas
Turner, Inc., 197 F.3d 58, 60 (2d Cir. 1999). Where the
Superior Court applies an incorrect legal standard in
reaching that determination, it necessarily abuses its
discretion. See Miyamoto v. Dep’t of Motor Vehicles, 176

App. 98
Cal. App. 4th 1210, 1218–19 (2009). The Superior
Court’s determination of whether a suitable alternative
forum exists is reviewed de novo, and its determination
of whether California is inconvenient is reviewed for
abuse of discretion. Hahn v. Diaz-Barba, 194 Cal. App.
4th 1177, 1187 (2011).
ARGUMENT
I. L I T I G A T I N G
SUBJECT
MATTER
JURISDICTION BEFORE PERSONAL
JURISDICTION DOES NOT FORFEIT
PERSONAL JURISDICTION
The essence of the Superior Court’s finding of
forfeiture was that Pfizer forfeited personal jurisdiction
by deferring a dispositive motion until the federal
courts resolved the issue of subject matter jurisdiction.
Under the Superior Court’s view, Pfizer was required
to file a personal jurisdiction motion while its subject
matter jurisdiction briefing was pending, because it
“had more than enough time to” do so. (Ex. A at 7.)
Likewise, the Superior Court held that when Pfizer
suggested that it would conditionally waive personal
jurisdiction if the MDL court found subject matter
jurisdiction, Pfizer thereby forfeited personal
jurisdiction even though the MDL court did not find
subject matter jurisdiction. (Id. at 8–9.)
Both of these rulings were legal error. Because the
Superior Court found a forfeiture based solely on
Pfizer’s conduct in federal court, federal law governs
the question of whether a forfeiture occurred. See FED
R. CIV. P. 81(c). Plaintiffs had the burden of showing
that Pfizer forfeited its personal jurisdiction challenge.

App. 99
See Lazar v. Kroncke, 862 F.3d 1186, 1200–01 (9th Cir.
2017). Under federal law, a defendant may forfeit its
right to contest personal jurisdiction through its
conduct in only two ways. First, the defendant forfeits
personal jurisdiction if its conduct “manifests an intent
to submit to the court’s jurisdiction.” Brokerwood Int’l
(U.S.), Inc. v. Cuisine Crotone, Inc., 104 F. App’x 376,
380 (5th Cir. 2004) (quoting Yeldell v. Tutt, 913 F.2d
533 (8th Cir. 1990)). Second, a defendant may forfeit
personal jurisdiction if it “cause[s] the court to go to
some effort that would be wasted if personal
jurisdiction is later found lacking.” Mobile
Anesthesiologists Chicago, LLC v. Anesthesia Assocs. of
Houston Metroplex, P.A., 623 F.3d 440, 443 (7th Cir.
2010).
Here, unlike the defendants in any of the cases cited
by the Superior Court, Pfizer litigated only the issue of
the federal courts’ subject matter jurisdiction. Because
Pfizer was both entitled and, in these circumstances,
required to litigate subject matter jurisdiction before
personal jurisdiction, Pfizer’s decision to do so cannot
reasonably have suggested to Plaintiffs or the courts
that it intended to acquiesce to personal jurisdiction.
Nor did Pfizer forfeit its defense by conditionally
suggesting that it would waive its meritorious personal
jurisdiction defense if the district court found that it
had subject matter jurisdiction—that condition was
unmet, and, in any event, a wavier is not a forfeiture.
The Superior Court’s ruling was error and a writ
therefore should issue.

App. 100
A. Pfizer’s Personal Jurisdiction Defense Is
Undisputedly Meritorious Under Bristol-Myers
Squibb
Grounded in the Fourteenth Amendment’s Due
Process Clause, personal jurisdiction is a defense of
constitutional magnitude. World-Wide Volkswagen
Corp. v. Woodson, 444 U.S. 286, 291 (1980).
Accordingly, under the federal law that controls here,
any question of the inadvertent forfeiture of that
defense—rather than a knowing and intentional
waiver—is subject to stringent review. See, e.g.,
Prospect Funding Holdings, LLC v. Vinson, 256 F.
Supp. 3d 318, 326 (S.D.N.Y. 2017) (courts should be
“slower to find waiver by a defendant wishing to
contest whether it was obliged to defend in a distant
court” (quoting Datskow v. Teledyne, Inc., 899 F.2d
1298 (2d Cir. 1990))); Nedgam Productions, LLC v.
Bizparentz Foundation, 2010 WL 3257909, at *2 (D.
Conn. Apr. 29, 2010). Personal jurisdiction not only
protects a defendant’s fair notice interest in being free
from “inconvenient or distant litigation,” but also
“encompasses the more abstract matter of submitting
to the coercive power of a State that may have little
legitimate interest in the claims in question.” BristolMyers Squibb Co. v. Super. Ct. of Cal., 137 S. Ct. 1773,
1780 (2017). In this regard, it is “‘a consequence of
territorial limitations on the power of the respective
States.’” Id. (quoting Hanson v. Denckla, 357 U.S. 235,
251 (1958)). Thus, even apart from concerns of
convenience and the forum state’s established interests
in applying its law, “‘the Due Process Clause, acting as
an instrument of interstate federalism, may sometimes
act to divest the State of its power to render a valid

App. 101
judgment.’” Id. at 1781 (quoting
Volkswagen, 444 U.S. at 293).

World-Wide

These concerns are plainly dispositive here. When
confronted with a situation nearly identical to the
procedural posture of these cases, the Supreme Court
in Bristol-Myers held that the California courts lacked
personal jurisdiction over the claims of non-resident
plaintiffs. Id. at 1784. There, as here, the Court
reviewed multi-plaintiff pharmaceutical products
liability actions, consisting primarily of non-resident
plaintiffs, to which McKesson had been joined as an instate defendant. Id. at 1783. There, as here, the
primary defendant was neither incorporated nor
headquartered in California, and the non-resident
plaintiffs lacked any link from the defendant’s
California contacts to their claims. Id. at 1782. The
Supreme Court held that, under “settled principles
regarding specific jurisdiction,” there was no personal
jurisdiction over the non-residents’ claims due to the
lack of “a connection between the forum and the
specific claims at issue.” Id. at 1781. Here, the same
result is inescapable.
The landmark Bristol-Myers Squibb decision and
the litigation that preceded it were widely reported and
closely watched during the pendency of this litigation.
The due process and federalism limitations on personal
jurisdiction that were dispositive in Bristol-Myers
Squibb require the same result on the facts before the
Court here. Neither Plaintiffs nor the Superior Court
have contended otherwise. Accordingly, the suggestion
that Pfizer, through a single footnote in a brief,
forfeited these undisputedly meritorious and properly

App. 102
preserved personal jurisdictional defenses warrants
exceedingly close scrutiny.
B. Personal and Subject Matter Jurisdiction Are
Distinct, Co-Equal, and Non-Exclusive Bases
of Jurisdiction
Personal jurisdiction and subject matter jurisdiction
are coequal yet distinct prerequisites to the exercise of
judicial power. Ruhrgas AG v. Marathon Oil Co., 526
U.S. 574, 583 (1999). Both are “‘essential element[s] to
the jurisdiction of a district . . . court,’ without which
the court is ‘powerless to proceed to an adjudication.’”
Id. at 584 (quoting Employers Reinsurance Corp. v.
Bryant, 299 U.S. 374 (1937)). “The character of the two
jurisdictional bedrocks,” however, “unquestionably
differs.” Id. at 583. Specifically, subject matter
jurisdiction limits the court’s “authority over the
category of claim in suit,” whereas personal jurisdiction
limits the court’s “authority over the parties.” Id. at
577. Additionally, subject matter jurisdiction “is
nonwaivable and delimits federal-court power, while
restrictions on a court’s jurisdiction over the person are
waivable and protect individual rights.” Id. at 583.
Because of the distinctness of these two doctrines,
a court may find the one and reject the other—as in
Ruhrgas, where the Supreme Court approved a
decision that dismissed claims for lack of personal
jurisdiction as a means of shoring up its subject matter
jurisdiction. See id. at 588. The law is clear that a
defendant does not forfeit a personal jurisdiction
challenge by invoking federal subject matter
jurisdiction, see Morris & Co. v. Skandinavia Ins. Co.,
279 U.S. 405, 409 (1929); LandWatch San Luis Cty v.

App. 103
Cambria Cmty Servs. Dist., 2009 WL 10675983, at *2
(C.D. Cal. Apr. 29, 2009), or transferring a case to an
MDL proceeding. See In re Mobile Telecomms. Techs.,
LLC, 243 F. Supp. 3d 545, 552 (D. Del. 2017); In re
Atrium Medical Corp. C–Qur Mesh Products Liability
Litigation (MDL No. 2753), 299 F. Supp. 3d 324, 329
(D.N.H. 2017). Thus, by arguing that this proceeding
was within the subject matter jurisdiction of the
federal courts, Pfizer made no statements, explicit or
implicit, with regard to its willingness to submit to
personal jurisdiction in California for all or any of
Plaintiffs’ claims.
Moreover, the constitutional architecture of these
two doctrines “does not dictate a sequencing of
jurisdictional issues,” since “[i]t is hardly novel for a
federal court to choose among threshold grounds for
denying audience to a case on the merits.” Ruhrgas,
526 U.S. at 584–85. In most cases, if “subject-matter
jurisdiction is resolved as easily as personal
jurisdiction, a district court” may conclude, as the MDL
court did here, “that federalism concerns tip the scales
in favor” of deciding subject matter jurisdiction first.
Id. at 586 (quotation omitted). At the same time, “[t]he
federal design allows leeway” for a district court to
determine “that concerns of judicial economy and
restraint are overriding,” and thereby to resolve a
straightforward question of personal jurisdiction before
deciding subject matter jurisdiction. Id. at 586–87.
Courts thus frequently do so in situations where,
unlike these cases, the resolution of personal
jurisdiction before subject matter jurisdiction will

App. 104
simplify or obviate the subject matter jurisdiction
inquiry.7
C. Pfizer Was Not Required to Move on Personal
Jur is diction While Subject Matter
Jurisdiction Was Being Litigated
Under Ruhrgas, there was nothing whatsoever
improper with Pfizer following the ordinary procedure
by sequencing its litigation of subject matter
jurisdiction before personal jurisdiction. Because, as
explained below, dismissal of the non-resident
Plaintiffs for lack of personal jurisdiction would not
create complete diversity between the remaining
Parties in these cases, litigating subject matter
jurisdiction first was mandatory. Yet, the Superior
Court held that Pfizer’s adherence to this default
procedure effected a forfeiture of its personal
jurisdiction defenses. Although the Superior Court
acknowledged that “the passage of time alone is
generally not sufficient to indicate forfeiture” (Ex. A at
5 (quoting Hamilton v. Atlas Turner, Inc., 197 F.3d 58,
61 (2d Cir. 1999))), it found a forfeiture two pages later
because Pfizer “had more than enough time” to file a
dispositive motion while it was litigating subject
matter jurisdiction in the MDL. (Id. at 7.)

7

See, e.g., Alpine View Co. Ltd. v. Atlas Copco AB, 205 F.3d 208
(5th Cir. 2000); accord In re Testosterone Replacement Therapy
Prods. Liab. Litig., 2016 WL 640520 (N.D. Ill. Feb. 18, 2016); Kraft
v. Johnson & Johnson, 97 F. Supp. 3d 846, 851 (S.D. W. Va. 2015);
Locke v. Ethicon Inc., 58 F. Supp. 3d 757 (S.D. Tex. 2014); Foslip
Pharm., Inc. v. Metabolife Int’l, Inc., 92 F. Supp. 2d 891 (N.D. Iowa
2000).

App. 105
There is no authority supporting that ruling. To the
best of Pfizer’s knowledge, no court, other than the
Superior Court here, has ever held that a removing
defendant forfeits a personal jurisdiction challenge by
litigating subject matter jurisdiction before moving to
dismiss. Nor did the Superior Court cite any such
decisions in its Order. To the contrary, every one of the
forfeiture cases cited by the Superior Court involved a
defendant litigating on the merits or disregarding
explicit personal jurisdiction filing deadlines—not, as
here, the litigating subject matter jurisdiction only.8
The notion that litigation of subject matter jurisdiction
alone forfeits personal jurisdiction is, as far as the
record of these proceedings shows, completely
unprecedented. For this reason alone, a writ should
issue.
Fundamentally, the rationale of the Superior
Court’s decision is contrary to Ruhrgas. Under
Ruhrgas, personal jurisdiction and subject matter
jurisdiction need not go hand in hand. For example, the
8

See Hamilton, 197 F.3d at 61 (finding forfeiture where the
defendant filed a motion to dismiss just two months before trial,
after the parties had completed merits discovery and participated
in settlement conferences); Continental Bank, N.A. v. Meyer, 10
F.3d 1293, 1297 (7th Cir. 1993) (finding forfeiture where the
defendants “participated in lengthy discovery, filed various
motions and opposed a number of motions filed by the bank”);
Cohain v. Klimley, No. 09-4527, 2010 WL 3701362, at *18–19
(S.D.N.Y. Sept. 20, 2010) (finding forfeiture where the defendant
“appeared for a pretrial conference at which a discovery and
motion schedule was set,” filed a motion to transfer that “did not
relieve him of his obligation to comply with the Ohio court’s motion
schedule,” and “ignore[d] [that schedule’s] deadline for filing a
motion challenging personal jurisdiction.”).

App. 106
Ruhrgas Court itself found the presence of subject
matter jurisdiction but the lack of personal jurisdiction.
Because subject matter jurisdiction and personal
jurisdiction are distinct and co-equal, then, contrary to
the Superior Court’s ruling, there is nothing about
Pfizer’s litigation of the former that suggests its assent
to the latter. In addition, Ruhrgas held that “[t]he
federal design” affords courts discretion to sequence
their resolution of jurisdictional issues. 526 U.S. at
586–87. If that is so, then it would be a truly draconian
result to penalize with forfeiture a litigant’s invocation
of the court’s discretion to decide one jurisdictional
basis before another.
Thus, despite preserving this issue in its answers,
the Superior Court effectively required Pfizer to move
on all jurisdictional grounds simultaneously to avoid a
forfeiture. By requiring Pfizer to have litigated the
issue of personal jurisdiction first or lose its right to do
so, the Superior Court rejected Ruhrgas’s flexible
jurisdictional sequencing in favor of a rigid hierarchy.
The Superior Court effectively placed itself in the shoes
of the MDL court to compel the retroactive exercise of
its Ruhrgas discretion. That hindsight judgment is
particularly troubling because the MDL court
specifically declined a Ruhrgas invitation to litigate the
issue of personal jurisdiction before subject matter
jurisdiction in related cases. (Ex. P at 51–52.)9

9

The Central District of California likewise determined that it was
necessary to resolve subject matter jurisdiction before personal
jurisdiction. (Ex. S at 11:11–25.)

App. 107
The Superior Court ruled that Ruhrgas was
inapposite because it “does not address” forfeiture and
purportedly shows that Pfizer “could have asked the
federal courts to first decide the issue of subject matter
jurisdiction.” (Ex. A at 9.) That ruling is incorrect on
both points. First, unlike the decisions cited by the
Superior Court, Ruhrgas does address the interaction
of the litigation of subject matter and personal
jurisdiction, and is thus relevant to the Superior
Court’s forfeiture analysis under federal law. Second,
and more importantly, Ruhrgas would have actually
precluded any attempt by Pfizer to litigate personal
jurisdiction before subject matter jurisdiction. (Ex. A at
9.) Here, unlike in Ruhrgas, resolution of personal
jurisdiction would neither dispose of the entire action
nor simplify the inquiry with regard to subject matter
jurisdiction. As a result, the district court was required
to resolve first the extent of the federal courts’ power to
adjudicate these actions as a whole (subject matter
jurisdiction) before the more narrow question of the
courts’ power with respect to the non-resident
Plaintiffs’ claims against Pfizer (personal jurisdiction).
The court would first have to decide, among other
things, whether the cases were removable under CAFA.
Without that predicate power over these entire actions,
the MDL court would have no authority to dismiss a
subset of claims by non-resident Plaintiffs for lack of
personal jurisdiction.
Because of this unique procedural posture—in
contrast to the posture of the Missouri cases—Pfizer
did not move to dismiss for lack of personal jurisdiction
in the MDL with regard to the non-resident Plaintiffs.
The MDL court could not decide any such motion before

App. 108
determining its subject matter jurisdiction. Pfizer’s
deferral of litigation of personal jurisdiction pending
resolution of subject matter jurisdiction was thus fully
in accord with the “judicial economy” rationale of
Ruhrgas. See Ruhrgas 526 U.S. at 586–87. There is no
point in punishing Pfizer for failing to file a motion
that the MDL court would have been powerless to
decide and, in fact, later stated in related cases that it
would not decide.
Finally, deferral of a dispositive motion on personal
jurisdiction was also consonant with the “fairness”
concerns that underlie the personal jurisdiction
doctrine. If Pfizer must determine whether and when
to raise a right designed to protect it from “the burdens
of litigating in a distant or inconvenient forum,” WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286,
291–92 (1980), it must first know what forum that will
be. It matters greatly to a defendant haled into court
whether that court is state or federal, and whether it is
a multi-district litigation court with pre-trial powers
only, see 28 U.S.C. § 1407(a), or a local federal court
vested with the power to try the cases to judgment.
Acquiescing to the jurisdiction of the Los Angeles
Superior Court involves vastly different litigation
burdens than the Central District of California. In
federal court, Pfizer would have the benefit of pretrial
coordination in the MDL in South Carolina, which is
much closer than California to New York, Pfizer’s
principal place of business. Moreover, the MDL would
employ federal procedures and evidentiary rules with
which Pfizer would already have to familiarize itself in
litigating the other MDL plaintiffs’ claims. Because

App. 109
Plaintiffs knew that Pfizer lacked information critical
to determining whether a motion to dismiss would be
appropriate or desirable, Plaintiffs could not have had
a “reasonable expectation” that Pfizer would not raise
the personal jurisdiction defenses that it stated and
properly preserved in its answers. Mobile
Anesthesiologists Chicago, LLC v. Anesthesia Assocs. of
Houston Metroplex, P.A., 623 F.3d 440, 443 (7th Cir.
2010).10
D. A Conditional Waiver Is Ineffective If the
Condition Is Unmet
The only other basis for the district court’s finding
of forfeiture was a single footnote on the last page of its
Reply brief in support of Pfizer’s Omnibus Motion for
Summary Judgment in the MDL proceedings. (Ex. A at
8–9.) Although the MDL court granted summary
judgment in all cases due to lack of admissible evidence
on causation, see In re Lipitor, 227 F. Supp. 3d 452, 485
(D.S.C. 2017); In re Lipitor, 226 F. Supp. 3d 557, 584
(D.S.C. 2017), Pfizer did not and could not move for
summary judgment in these cases, where the MDL
court had not yet determined its subject matter
jurisdiction. See Steel Co. v. Citizens for a Better
Environment, 523 U.S. 83, 93–94 (1998). Instead, Pfizer
filed its Summary Judgment Motion in relation to the
other cases in the MDL and, in a footnote at the end of
its Reply brief, stated that if the MDL court
10

Cf. American Patriot Ins. Agency, Inc. v. Mutual Risk Mgnt.,
Ltd., 364 F.3d 884, 888 (7th Cir. 2004) (although defendants
participated in discovery and settlement discussions, “the plaintiff
would have been unreasonable to infer from this that the
defendants would not plead improper venue”).

App. 110
determined that it had subject matter jurisdiction,
then it could enter judgment against the Plaintiffs in
these actions. (See Defs.’ Reply at 19 n.9, In re: Lipitor,
MDL No. 14-2502 (D.S.C. Aug. 12, 2016) (No. 1608).)
Because the MDL court ultimately held that it lacked
subject matter jurisdiction, that condition was never
fulfilled. Yet, the Superior Court still concluded that
this ruling showed Pfizer was “seeking a ruling on the
merits of the California cases before the transferee
court” and therefore forfeited its jurisdictional defenses
in the California courts. (Ex. A at 8.)
This ruling was error. At most, Pfizer’s footnote
indicated only that it was willing formally to waive
(not forfeit) its personal jurisdiction rights (as it is
entitled to do) if these actions proceeded in federal
court. “Defendants are entitled to waive any
shortcomings in venue or jurisdiction over the person.”
Moore v. Olson, 368 F.3d 757, 759 (7th Cir. 2004).
Parties frequently make such conditional waivers of
personal jurisdiction. As here, conditional waivers often
are made contingent on litigation in a particular
forum—for example, through a requested forum non
conveniens dismissal or a transfer to another forum.11
And in other cases, conditional waivers also occur in ex
ante contract negotiations, see, e.g., Jutalia Recycling,
Inc. v. CAN Metals Ltd., 542 S.W.3d 90, 94–95 (Tex. Ct.
11

See, e.g., Paper Operations Consultants Int’l, Ltd. v. S.S. Hong
Kong Amber, 513 F.2d 667, 672–73 (9th Cir. 1975); Robert Bell
Helicopter Textron, Inc., 2002 WL 1268030, at *1 n.3 (N.D. Tex.
May 31, 2002); Anglo Eastern Bulkships Ltd. v. Ameron, Inc., 1979
A.M.C. 459. 466 (S.D.N.Y. 1978); Anandan v. Singapore Airlines
Ltd., No. B175069, 2005WL 758444, at *8 (Cal. Ct. App. Apr. 5,
2005) (not precedential).

App. 111
App. 2017), where they may be specifically contingent
on a determination that a given court has proper
subject matter jurisdiction.12
Here, the condition of Pfizer’s waiver of personal
jurisdiction—a finding of subject matter jurisdiction in
the MDL—was unmet. As a result, no waiver occurred.
Nor could that conditional waiver give Plaintiffs or the
Court any reason to expect that Pfizer would relinquish
its personal jurisdiction defenses in state court.
Notably, Pfizer offered a similar conditional waiver
in proceedings in the Central District of California.
After these actions were remanded from the MDL
court, Pfizer repeated this conditional waiver to Judge
Carney, who specifically disclaimed any suggestion
that Pfizer’s statements effected a waiver:
MR. CHEFFO: … [W]e have a personal
jurisdiction affirmative defense that … we think
12

See, e.g., Eli Lilly & Co. v. Home Ins. Co., 794 F.2d 710, 718 (D.C.
Cir. 1986) (“It is agreed that in the event of the failure of the
Insurer(s) hereon to pay any amount claimed to be due hereunder,
Insurer(s) hereon, at the request of the Insured, will submit to the
jurisdiction of any Court of competent jurisdiction within the
United States and will comply with all requirements necessary to
give such Court jurisdiction and all matters arising hereunder
shall be determined in accordance with the law and practice of
such Court.”); Panama Processes, S.A. v. Cities Serv. Co., 1985 WL
487, at *1 (S.D.N.Y. Apr. 1985) (defendant “[c]onsents to personal
jurisdiction over it by any court located in the Republic of Brazil
which has appropriate subject matter jurisdiction with respect to
the claims raised by plaintiff Panama Processes, S.A., against
defendant Cities Service Company in the complaint filed in the
within action and agrees to contest on their merits any such claims
raised by plaintiff in any such court”).

App. 112
it will be moot frankly to the extent that we’re
here before Your Honor in this Court, as we
think we should be under CAFA. But to the
extent we’re not in State Court, I don’t want
there to be any confusion that we have
waived that issue. But that’s not something I
think this Court is going to need to take up.
THE COURT: And I saw that in the briefing,
and I don’t mean to suggest that you’ve
waived any of your other defenses or
arguments or issues that might be there, but
all I’m saying is I don’t want to do anything
about the case until I’ve decided this CAFA is a
jurisdictional issue.
MR. CHEFFO: And we couldn’t agree more. The
jurisdictional issue goes away to the extent
that Your Honor determines that there’s
CAFA jurisdiction.
(Ex. S at 11:11–25 (emphases added).)13
13

The Superior Court further stated that “if the Pfizer Defendants
had lost their ‘Omnibus Motion for Summary Judgment’ before the
transferee court, they would have been foreclosed from raising the
issue of personal jurisdiction to attempt, after the fact, to avoid
application of such adverse ruling as to the non-California
Plaintiffs.” (Ex. A at 9.) This is circular reasoning that assumes a
forfeiture and sandbagging where none has been shown. There is
no reason to think Pfizer would not have been permitted to raise
this challenge if it had lost summary judgment. More important,
if Pfizer had lost summary judgment, Pfizer still would have been
willing to waive personal jurisdiction if this matter were
proceeding in federal court. Accordingly, the Court’s suggestion
that Pfizer engaged in sandbagging is both logically and factually
incorrect.

App. 113
Finally, if the MDL court had found subject matter
jurisdiction, filing a dispositive motion on personal
jurisdiction would have been a purely futile procedural
exercise because it would have ended with the exact
same result. If the non-resident Plaintiffs’ claims had
been dismissed on personal jurisdiction grounds in
favor of litigation in their home jurisdictions, they
would have been removable to federal court upon
refiling, since McKesson would no longer be a forum
defendant. See 28 U.S.C. §§ 1332(a), 1441(b). Upon
removal, they would be properly transferred back to
the MDL and, at that time, would meet the same result
as the other cases: summary judgment due to lack of
admissible expert testimony on causation. Because
Pfizer reasonably believes—then and now—that federal
subject matter jurisdiction exists, it cannot now be
accused of sandbagging or wasting judicial resources
when in fact it took what appeared, ex ante, to be the
more efficient route.
****
In sum, after promptly alerting Plaintiffs to its
personal jurisdiction challenge in its answers, there
was nothing improper about litigating subject matter
jurisdiction before moving to dismiss for lack of
personal jurisdiction. Pfizer’s conduct in federal court
cannot reasonably be interpreted as “manifest[ing] an
intent to submit” to the jurisdiction of the California
courts. Continental Bank, N.A. v. Meyer, 10 F.3d 1293
(7th Cir. 1993). Rather, the Superior Court’s Order was
contrary to the Supreme Court’s decision in Ruhrgas
and misconstrued Pfizer’s conditional waiver as a
matter of law. Accordingly, this Court should direct the

App. 114
Superior Court to vacate its Opinion and Order and
grant Pfizer’s Motion to Quash.
II. THE SUPERIOR COURT SHOULD HAVE
DISMISSED ON FORUM NON CONVENIENS
GROUNDS
The Superior Court also improperly declined to
dismiss for forum non conveniens. In their Response to
Pfizer’s Motion to Dismiss, Plaintiffs did not argue that
dismissal was improper; rather, they argued that Pfizer
had forfeited the issue. Although the Superior Court
did not find a forfeiture of this issue, it nonetheless
decided sua sponte that California was an appropriate
forum to litigate these claims.
A court should dismiss for forum non conveniens
where there is a suitable alternative forum and the
private and public interest factors weigh in favor of
litigating the action in that alternative forum. Stangvik
v. Shiley Inc., 819 P.2d 14, 17 (Cal. 1991). “The private
interest factors are those that make trial and the
enforceability of the ensuing judgment expeditious and
relatively inexpensive, such as the ease of access to
sources of proof, the cost of obtaining attendance of
witnesses, and the availability of compulsory process
for attendance of unwilling witnesses.” Id. In contrast,
“[t]he public interest factors include avoidance of
overburdening local courts with congested calendars,
protecting the interests of potential jurors so that they
are not called upon to decide cases in which the local
community has little concern, and weighing the
competing interests of California and the alternate
jurisdiction in the litigation.” Id.

App. 115
A. Plaintiffs’ Home
Alternative Fora

States

Are

Suitable

Whether there is a suitable alternative forum is not
a high bar. “A forum is suitable where an action ‘can be
brought,’ although not necessarily won.” Hahn v. DiazBarba, 194 Cal. App. 4th 1177, 1187 (2011) (citation
and internal quotation marks omitted). “An alternative
forum is suitable if it has jurisdiction and the action in
that forum will not be barred by the statute of
limitations.” Inv’s Equity Life Holding Co. v. Schmidt,
195 Cal. App. 4th 1519, 1529 (2011). Here, Pfizer and
McKesson stipulated (and continue to stipulate) that
they will not to raise a statute of limitations defense
against any Plaintiff who refiles in their home state
unless the limitations period had already expired when
they filed in California. The Superior Court determined
that there was no suitable alternative forum, however,
because “it is possible that Plaintiffs complying with
California’s limitations period would be shut out of
other states’ courts” if those states have a shorter
limitations period. (Ex. A at 11.) The Superior Court
was incorrect for several reasons:
% First, if Plaintiffs’ home-state fora were
inadequate, Plaintiffs could have been expected
to say so. They did not. Nor did they dispute the
propriety of Pfizer’s request in its meritorious
personal jurisdiction motion that their claims be
dismissed in favor of litigation in their home
states.
% Second, no one—not Pfizer, not Plaintiffs, not
the Court—pointed to a single jurisdiction with

App. 116
a shorter limitations period that would actually
result in a Plaintiff’s claims being barred.
% Third, the Superior Court will almost certainly
have to apply the other forum’s statute of
limitations under California’s conflict of laws
rules.14 It therefore does not matter whether
California’s limitations period is longer because
California’s limitation period will not apply
regardless of where these cases proceed.
% Finally, the Court denied Pfizer’s Motion
without giving Pfizer any opportunity to respond
to its concerns about the Parties’ stipulation.
Although the stipulation is sufficient to ensure
an alternative forum (to the same extent
California is available), Pfizer would have gladly
amended the language of the stipulation to allay
any concerns the Court might have had.
Accordingly, Plaintiffs’ home states are suitable
alternative fora.

14

See Deirmenjian v. Deutsche Bank, A.G., No. 06-00774, 2010 WL
3034060, at *14 (C.D. Cal. July 30, 2010); McCann v. Foster
Wheeler LLC, 225 P.3d 516, 534 (Cal. 2010) (applying Oklahoma’s
statute of repose where underlying conduct and injury occurred in
Oklahoma); see also Deutsch v. Turner Corp., 324 F.3d 692, 716–17
(9th Cir.2003) (“California’s interest in applying its own law is
strongest when its statute of limitations is shorter than that of the
foreign state, because a state has a substantial interest in
preventing the prosecution in its courts of claims which it deems
to be ‘stale.’” (quotation marks omitted)).

App. 117
B. The Private and Public Interest Factors
Favor Dismissal
The private and public interest factors weigh
overwhelmingly in favor of dismissal.
Pfizer and Plaintiffs reside out of state. Plaintiffs
were prescribed Lipitor in their home states, allegedly
injured in their home states, and treated in their home
states. See Hansen v. Owens-Corning Fiberglas Corp.,
51 Cal. App. 4th 753 (1996) (“California courts . . . have
little or no interest in litigation involving injuries
incurred outside of California by nonresidents.”).
The Superior Court cannot compel Plaintiffs’
treating physicians, family, friends, or work
supervisors and colleagues to testify at trial in
California. See Gulf Oil Corp. v. Gilbert, 330 U.S. 501,
511 (1947) (“[T]o fix the place of trial at a point where
litigants cannot compel personal attendance and may
be forced to try their cases on deposition, is to create a
condition not satisfactory to [the] court, jury or most
litigants.”); Morris v. AFGA Corp., 144 Cal. App. 4th
1452, 1455, 1466 (2006). Even if these witnesses
willingly come to California, some of them will have to
travel thousands of miles, and the physician-witnesses’
other patients would lose the services of their doctors
during that time. See Bridgeman v. Bradshaw, 405 F.
Supp. 1004, 1007 (D.S.C. 1975) (observing that the
convenience of physicians is “important to the
community and to their attention at a hospital where
their services are of great value and moment” and
transferring the case to doctors’ district). Similarly,
other evidence, such as Plaintiffs’ medical and
pharmacy records, are located out of state. See, e.g.,

App. 118
Stangvik v. Shiley Inc., 819 P.2d 14, 21 (Cal. 1991)
(“[B]ecause virtually all witnesses and documents
relating to the decedents’ medical care and treatment,
medical histories, loss of earnings, and all the
witnesses to the familial impacts of their deaths are
located in Scandinavia, it is more convenient to try the
actions there.”); In re Crestor, No. JCCP 4713, 2014 WL
12708774, at *4 (Cal. Super. Ct. Oct. 14, 2014) (trial
court decision) (dismissing 558 out-of-state plaintiffs’
claims where “‘virtually all witnesses and documents
relating to [their] medical care and treatment, medical
histories, loss of earnings, and all the witnesses to the
familial impacts of their [illnesses] are located in’
Plaintiffs’ home states.”); Hoover v. Hoffman-La Roche,
Inc., Nos. 4740, BC487606, BC502598, 2014 WL
3579826, at *3 (Cal. Super. Ct. July 21, 2014) (trial
court decision).
The only discernable interest California or its jurors
might have in these claims is that they are based on
allegations similar to those of the California
Plaintiffs—an interest which can be vindicated by
litigating the California Plaintiffs’ claims here and
litigating the non-California Plaintiffs’ claims in other
forums. See Stangvik, 819 P.2d at 26 (“California’s
interest in deterring future improper conduct by
defendants would be amply vindicated if the actions
filed by California resident plaintiffs resulted in
judgments in their favor.”). In a similar case involving
alleged injuries due to a prescription medication, the
Second District Court of Appeal explained that such
suits have no place in California:

App. 119
[T]he most important reason for affirming the
forum non conveniens decision of the trial court
is that the torts alleged in this case have
nothing to do with California. They were not
committed here; none of the affected appellants
received her injury in this state; and none
resides here. California was chosen for no
other reason than it was believed to be
hospitable to the theories appellants want
to advance. Appellants could just as well have
brought their action in Washington, West
Virginia or Wyoming. Assuming that the
national drug company respondents have a
general presence there, the courts of those
jurisdictions have as much, or as little, to do
with the merits of the case as the courts of this
state. We find no justification for California
courts and juries to bear the burden of this
litigation.
Boaz v. Boyle &Co., 40 Cal. App. 4th 700, 713–14
(1995) (emphases added).
Nor does Plaintiffs’ joinder of McKesson—a
California-based distributor—as a Defendant change
this result. The mere fact that a defendant is a
California resident does not control the forum non
conveniens analysis: the moving defendant in Stangvik
was a California manufacturer, but the Court
nonetheless held that, on balance, California was an
inconvenient forum in a case brought by plaintiffs from

App. 120
Sweden and Norway who were injured in those
countries. Stangvik, 819 P.2d at 16, 26–27.15
The Superior Court did not address the private
interest factors at all. Rather, it stated only that Pfizer
had previously sought coordination under CAFA. See
Rinauro v. Honda Motor Co., 31 Cal. App. 4th 506, 510
(1995) (“No one factor should determine the outcome of
a forum non conveniens motion.”). Yet, as explained
above, participating in coordinated MDL proceedings in
South Carolina involves substantially different (and
fewer) burdens for Pfizer than this JCCP. Moreover,
Pfizer’s willingness to engage in those proceedings does
not mean that Pfizer believed that the MDL or the

15

Moreover, other courts have dismissed cases on forum non
conveniens grounds where, as here, plaintiffs also named
McKesson as a defendant. For instance, in the Crestor litigation,
Judge Hogue reasoned that to the extent that “McKesson produced
any fraudulent or misleading statements in California ‘they were
received and relied on in [Plaintiffs’ home states], and the [home
state] doctors have knowledge of decedents’ preexisting medical
conditions, the factors relevant to a risk-benefit analysis,’ and the
factors they considered prior to prescribing Crestor.” In re Crestor,
2014 WL 12708774, at *4 (quoting Stangvik, 819 P.2d at 21)
(alterations in original). Similarly, in Hoover, Judge Freeman
noted that although the parties disputed the degree of McKesson’s
involvement in the out-of-state Plaintiffs’ claims—defendants
characterized it as a distributor, whereas plaintiffs claimed it did
more, including marketing the medications—”the manufacture and
testing of Accutane apparently occurred outside of California,” so
most of the relevant witnesses and evidence would be located
there, regardless of the degree of McKesson’s involvement. Hoover,
2014 WL 3579826, at *3. Although these decisions are not binding
on this Court, Pfizer brings them to the Court’s attention only
because they are well-reasoned opinions dealing with the exact
same co-defendant at issue here.

App. 121
Central District of California would be convenient for
the witnesses or that Pfizer would not be burdened by
the lack of compulsory process: Pfizer does not
represent the witnesses, and the availability of
compulsory process is only one factor Pfizer must
consider in determining whether to argue that
coordination in a particular venue is inconvenient.
The Superior Court further stated that coordination
in the JCCP will reduce the workload of the interstate
judicial system as a whole. (Ex. A at 12.) This is not so.
As explained above, (see Part I.D, supra), after the nonCalifornia Plaintiffs’ claims are refiled and re-removed
to federal court, the courts will apply the same
standard for expert admissibility applied by the MDL
and summarily dismiss the claims unless Plaintiffs can
produce new experts that they said they could not
produce in the MDL proceedings. See Stangvik, 819
P.2d at 19 n.5 (“[T]he fact that an alternative
jurisdiction’s law is less favorable to a litigant than the
law of the forum should not be accorded any weight in
deciding a motion for forum non conveniens provided,
however, that some remedy is afforded.”). In other
words, if the non-California Plaintiffs refile elsewhere,
the proceedings will come to an abrupt and efficient
end.
Because the private and public interest factors
overwhelmingly favor dismissal, the Superior Court
abused its discretion. Accordingly, this Court should
direct the Superior Court to vacate its Opinion and
Order and grant Pfizer’s Motion to Dismiss.

App. 122
CONCLUSION
Because the Superior Court erred in denying
Pfizer’s Motions to Quash and Dismiss, the Court
should issue a Writ of Mandate directing the Superior
Court to vacate its Opinion and Order and grant
Pfizer’s Motions.
Dated: April 12, 2019
By: /s/ William W. Oxley
William W. Oxley
Dechert LLP
US Bank Tower
633 West 5th Street, Suite 4900
Los Angeles, CA 90071-2032
Telephone: +1 213 808 5700
Facsimile: +1 213 808 5760
Attorney for Petitioners Pfizer Inc. and
Greenstone LLC
***
[Certificate of Compliance Omitted in the
Printing of this Appendix]

